<html>
<title> - S. 2046, NEXT GENERATION INTERNET IN THE PRESIDENTS FISCAL YEAR 2001 BUDGET</title>
<body><pre>[Senate Hearing 106-1091]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1091

 S. 2046, NEXT GENERATION INTERNET IN THE PRESIDENT'S FISCAL YEAR 2001 
                                 BUDGET

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


78-329              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    BILL FRIST, Tennessee, Chairman
CONRAD BURNS, Montana                JOHN B. BREAUX, Louisiana
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
TED STEVENS, Alaska                      Virginia
SPENCER ABRAHAM, Michigan            JOHN F. KERRY, Massachusetts
                                     BYRON L. DORGAN, North Dakota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held March 1, 2000.......................................     1
Statement of Senator Frist.......................................     1
    Prepared statement...........................................     4
Statement of Senator Rockefeller, IV.............................    25

                               Witnesses

Lane, Neal, Ph.D., Assistant to the President for Science and 
  Technology, and Director, Office of Science and Technology 
  Policy.........................................................     5
    Prepared statement...........................................     7
Colwell, Rita R., Ph.D., Director, National Science Foundation...    12
    Prepared statement...........................................    14
Lindberg, Donald A.B., M.D., Director, National Library of 
  Medicine.......................................................    18
    Prepared statement...........................................    21
Meredith, Thomas Carter, Ed.D., Chancellor, The University of 
  Alabama System.................................................    31
Stacy, Bill, Ph.D., Chancellor, The University of Tennessee at 
  Chattanooga....................................................    33
    Prepared statement...........................................    36
Tolbert, Stephen, President and Chief Executive Officer, Global 
  Systems & Strategies, Inc......................................    41
    Prepared statement...........................................    44

                                Appendix

Breaux, Hon., John B., U.S. Senator from Louisiana, prepared 
  statement......................................................    53
Hollings, Hon., Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    53
Houweling, Douglas Van, President and CEO, University Corporation 
  for Advanced Internet Development, prepared statement..........    54
Response to written questions by Hon. Bill Frist to:
    Dr. Rita R. Colwell..........................................    56
    Dr. Neal Lane................................................    59
    Dr. Donald A.B. Lindberg.....................................    55

 
 S. 2046, NEXT GENERATION INTERNET IN THE PRESIDENTS FISCAL YEAR 2001 
                                 BUDGET

                              ----------                              


                        WEDNESDAY, MARCH 1, 2000

                                        U.S.Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:42 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Frist, 
chairman of the subcommittee, presiding.
    Staff members assigned to this hearing: Elizabeth Prostic, 
Republican professional staff; and Jean Toal Eisen, Democratic 
professional staff.

             OPENING STATEMENT OF HON. BILL FRIST, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Frist. Good afternoon. I want to welcome all of our 
guests here today.
    As the Subcommittee on Science, Technology, and Space 
convenes its first hearing of the millennium, it is 
appropriate, I believe, that the Next Generation Internet 
occupies the prestigious position of being the first hearing 
before this committee in this millennium. The Internet that is 
one of the most significant developments of the last decade. 
Its significance, we all know, is not limited to the new 
industries that it has created, nor even the new educational 
opportunities that it affords. The impact of the Internet goes 
beyond all of those things and really delves into many areas we 
have not yet explored.
    We look back at the development of electronic commerce. We 
have seen the Internet radically alter the economic landscape 
of this country. Advances in industries are taking place at 
breakneck speed, faster and faster each and every day. And at 
the heart of all of this are really two components, as we all 
know. One is computers and the advances made in computer 
sciences, and the other is communications. More and more, we 
are seeing that the Internet really is the combination of 
computers and communications going hand in hand.
    If we wanted to look at a prototypical success story, I 
think we should look at the development of the Internet. There 
are so many different dimensions that we have all either been a 
part of or studied or touched upon. There is the element of the 
public and private collaboration. There is the element of the 
successful commercial application of technology that was first 
part of Federal mission-directed research. It also shows a 
successful transition of an operational system from initially 
the public sector over to the private sector.
    But, and what I brag about (because people ask me all the 
time, ``How in the world could you leave medicine to go to the 
public 
sector?'') is that it shows one of the great investments and 
payoffs of the public sector: the public investment. And now we 
have had so much success and so much positive change that we 
have a whole new set of challenges before us. With the advent 
of tools that have made the Internet more accessible and more 
easy to use, there has been an explosion in the amount of 
traffic that none of us, even 10 years ago, would have 
predicted.
    As computers become more powerful and applications more 
sophisticated and more advanced, and user interface becomes 
easier and easier to use and to manipulate, we can look 
forward, clearly, to an even greater demand for network 
bandwidth. So we have all the revolutionary advances to date, 
how they affect our daily lives, but, again, we have to see 
where we are today, see what challenges there are, what 
barriers there are in terms of speed and reliability and 
accessibility and versatility. So I think now, really more than 
ever, over the last 5 years, it is a useful time to see how we 
can invest in that next generation, in that next step.
    And then, we will see the unfolding of great new 
technologies. Again, drawing upon my own personal experience, 
the miraculous rewards that we will see with telemedicine 
delivering care and the exchange of the benefits of science 
with communities that simply do not have access today. Distance 
learning in our lifetime, I have the opportunity of sitting on 
a board of a major higher education institution, and the 
dominant theme in our last board meeting was: What about 
distance learning? How involved do we get? How does it change 
the culture of learning? How does it change the nature of our 
great higher educational institutions?
    I initially introduced the Next Generation Internet 
Research Act in 1998. And if we just go back to that period of 
time and look at enactment, you can go down the list--you see 
the National Science Foundation since that time has connected 
over 170 universities and other facilities to look at a test 
bed with hundredfold increase in network performance. And in 
the Department of Defense, there is currently a deployment of a 
test bed with a thousandfold increased performance at over 20 
sites to support networking research and applications 
deployment.
    So we look at these areas of real success over the last 3 
years, but I also think that it is really clear that there are 
areas where we have not progressed, where there are certain 
limitations and certain barriers. In the review of the first 2 
years of NGI, the President's Information Technology Advisory 
Committee recommended that the program should continue to focus 
on the utility of NGI's giga bandwidth to end users, its 
increased security and its expanded quality of service.
    Importantly, the committee shared Congress' concern that no 
Federal program specifically addresses the geographical penalty 
issue and the imposition of costs on users that are different, 
depending on where they are located, specifically, in rural and 
less urban areas, where the costs, disproportionately, are 
greater than the cost imposed on users in more urban locations, 
locations of higher populations. And this is a disappointment. 
As I look back, and as we look at that oversight, it is a 
disappointment that that has not been more adequately 
addressed.
    And we foresaw that in Congress. We thought we had 
addressed this geographic penalty, in part, through the 
authorization of NGI in 1998. But my sense is that it was not 
taken as seriously as it might be.
    Today we are going to hear from two panels of experts. And 
let me apologize in advance. As I mentioned to our panelists, 
we are in the middle of a series of votes. And my colleagues 
are actually still on the floor voting. And when they call the 
next vote, I will likely suspend the hearing for a few minutes 
and run over and vote and come back. So I want to apologize in 
advance.
    I am very excited about our two panels today. The first 
will consist of the President's Science Policy Advisor, Dr. 
Neal Lane, and other administration leaders, who will testify 
about ongoing research and development projects and programs 
being performed at their respective agencies. Also, I hope that 
we will look at some of the budgetary issues and highlight some 
of the new initiatives that the White House is undertaking this 
year.
    The second panel will shift perspective, and we will hear 
from private industry pioneers, who will address some of the 
endless possibilities of the Internet and help paint the 
picture of the transformation that is associated with progress 
in Internet and Internet technology. We will also hear from two 
prominent university presidents, who offer a different view of 
the Next Generation Internet: how their institutions, their 
students and their faculties, in some ways, are being left 
behind.
    So we have tremendous advances, tremendous inroads in the 
broad range of fields, yet we have one other area that I think 
has to be addressed in our panels and discussion today. And 
that is the digital divide. We are just simply leaving behind 
too many of our fellow Americans.
    Internet II, which is a powerful consortium of over 150 
universities and colleges, has a high, exorbitantly high, entry 
fee which simply precludes participation by both universities 
who will testify today. And I think that sends an important 
message to us as we address this issue of the digital divide. I 
have introduced legislation, with Senator Rockefeller and other 
colleagues, to address many of these geographical barriers.
    I would also like to focus our hearing today on the 
President's new budget request for the NGI and large-scale 
networking programs. I hope the administration will be able to 
help the committee understand the nuances of these programs, 
despite what seems to be name changes each year. And, again, 
that is going to require both some talking today, and working 
with the committees and our staffs.
    With that, let us go directly to our first panel. Let me 
simply say that I would like each witness to try to present his 
or her testimony in about 5 minutes. That means you will have 
to summarize your entire opening statements. Written opening 
statements will be made a part of the record. We will begin 
with the first panel. I will probably have to leave after Dr. 
Lane, but we will see what happens with this next vote.
    Our first panelist, Dr. Neal Lane, is Assistant to the 
President for Science and Technology and Director of the Office 
of Science and Technology Policy. He is a familiar face in this 
particular room, and I want to thank him in advance for 
participating so actively, so aggressively in the overall 
development of science policy. He is followed by Dr. Rita 
Colwell, Director of the National Science Foundation; and Dr. 
Donald Lindberg, Director of the National Library of Medicine.
    Let us begin with Dr. Lane, and we will proceed in that 
order.
    Dr. Lane, welcome.
    [The prepared statement of Senator Frist follows:]

   Prepared Statement of Hon. Bill Frist, U.S. Senator from Tennessee

    I would like to welcome all of our guests here today as the 
Subcommittee on Science, Technology, and Space convenes its first 
hearing of the millennium. It is rather appropriate I believe that the 
Next Generation Internet (NGI) should occupy this prestigious position. 
After all, the Internet is one of the most significant developments of 
the last decade. Its significance is not limited to the new industries 
that it has created, nor the new educational opportunities that it 
affords.
    The impact of the Internet goes beyond those things. With the 
development of electronic commerce, the Internet has radically altered 
the economic landscape of this country. Advances in industries are 
taking place at a faster and faster pace. At the heart of this 
exponential rate of change are two things: computers and 
communications. More and more we are seeing that computers and 
communications means the Internet.
    If you had to find a prototypical success story, it could very well 
be the Internet. There are in fact, multiple dimensions to its success. 
It was and is a successful public-private collaboration. It 
demonstrated successful commercial application of technology developed 
as part of federal mission-directed research program. It showed a 
successful transition of an operational system from the public to the 
private sector. Perhaps most of all, it is a prime example of a 
successful federal investment.
    In some respects the Internet is now ``suffering'' from too much 
success. With the advent of tools that have made the Internet easy to 
use, there has been an explosion in the growth of network traffic. As 
computers become more powerful, applications more sophisticated, and 
the user interfaces become easier to use, we can look forward to an 
even greater demand for network bandwidth.
    As we marvel about the revolutionary advances of the Internet and 
its ability to improve our daily lives, we often forget that the 
Internet is reaching its maximum potential because of the constraints 
on its speed, reliability, accessibility, and versatility. Therefore, 
now more than ever, we must look to the future and invest in the next 
generation Internet. If we want to experience the miraculous rewards of 
telemedicine and distance learning in our lifetime, we must, as a 
nation, continue to invest in research and develop advanced networking 
technologies.
    Since the enactment of the original ``Next Generation Internet 
Research Act'', which I introduced in 1998, the National Science 
Foundation has connected over 170 universities and facilities to a 
testbed providing a 100-fold increase in network performance. And the 
Department of Defense is currenily deploying a testbed with 1000-fold 
increased performance at over twenty sites to support networking 
research and applications deployment. As we applaud the success of the 
first three years of the NGI initiative, we must also realize its 
current limitations.
    In the review of the first two years of NGI, the President's 
Information Technology Advisory Committee recommended that the program 
should continue to focus on the utility of NGI's gigabit bandwidth to 
end-users, its increased security, and its expanded quality of service. 
More importantly, the committee shared Congress' concern that no 
federal program specifically addresses the geographical penalty issue--
the imposition of costs on users of the Internet in rural or other 
locations that are disproportionately greater than the costs imposed on 
users in locations closer to high populations. I must admit that this 
is a great disappointment for myself and my colleagues who fought to 
combat this geographical penalty through the authorization of NGI in 
1998. Unfortunately, the White House did not take us seriously.
    We will hear today from two panels experts. The first will consist 
of the President's Science Policy Advisor, Dr. Neal Lane, and other 
administration leaders who will testify about the ongoing R&D projects 
and programs being performed at their respective agencies. They will 
also address budgetary issues and highlight new initiatives that the 
White House is undertaking this year.
    Our second ranel will offer a different perspective. Two innovative 
private industry pioneers will address the endless possibilities of the 
Internet and its potential to transform and save lives. However, we 
will also hear from two prominent university presidents who offer a 
different view of the next generation Internet. Their institutions, 
their students, and their faculty are being left behind. While 
scientists throughout the country have made tremendous inroads during 
the past few decades, the digital divide makes the truth clear and 
simple: we are leaving many of our fellow Americans behind. Internet2, 
a powerful consortium of over 150 universities and colleges, charges an 
exorbitant entry fee which precludes participation from both 
universities that will testify before us today. I have introduced 
legislation with Senator Rockefeller and other colleagues to eliminate 
these geographical barriers.
    I would like to focus our hearing today on the President's new 
budget request for the NGI and Large Scale Networking programs. I hope 
that the administration will he able to help the committee understand 
the nuances of these programs, despite the constant name changes from 
year to year. Thank you.

 STATEMENT OF NEAL LANE, PH.D., ASSISTANT TO THE PRESIDENT FOR 
  SCIENCE AND TECHNOLOGY, AND DIRECTOR, OFFICE OF SCIENCE AND 
                       TECHNOLOGY POLICY

    Dr. Lane. Thank you, Mr. Chairman and members of the 
subcommittee. I want to thank you for this opportunity to 
testify about the important research and development 
investments proposed by S. 2046, the Next Generation Internet 
2000 Act.
    These crucial investments would strengthen and expand 
research authorized, thanks to your sponsorship, by the NGI Act 
of 1998. The Administration has been heartened by the active 
bipartisan support for efforts to strengthen our Nation's 
investment in information technology research. Your leadership 
here in the Senate, Mr. Chairman and members of the 
subcommittee, has been instrumental in building support for 
Federal IT research, which promises to pay enormous dividends 
for the American people.
    Today we live in an era of unprecedented promise and 
prosperity, built on advances in science and technology. 
Creative businesses have translated the results of federally 
funded advanced research into innovative products and services 
that enhance our daily lives. Nowhere is this more dramatically 
illustrated than in the IT sector. New computing, networking 
and communication tools allow Americans to shop, to do 
homework, to get health care advice online, and enable 
businesses of all sizes to successfully compete in the 
international economy.
    More than a third of all U.S. economic growth over the past 
5 years is attributable to this sector. Today, more than 13 
million Americans hold IT-related jobs. Over 800,000 jobs were 
created by IT companies in the past year alone. Information 
technology is changing everything in ways we do not yet fully 
understand.
    This remarkable progress has been built on a foundation of 
Federal research investments, leveraged by universities and 
industry. The President's Information Technology Advisory 
Committee, or PITAC, has emphasized that continued Federal 
investment is essential to maintain this momentum. We have 
heeded PITAC's recommendations in the President's fiscal year 
2001 budget.
    Our fiscal year 2001 budget presents a single, integrated 
information technology R&D portfolio, as recommended by PITAC, 
which includes the Base High Performance Computing and 
Communication programs, including Next Generation Internet, the 
new activities established by last year's Information 
Technology for the 21st Century Initiative, and the DOE's 
Accelerated Strategic Computer Initiative, or ASCI. The 
President is requesting $2.315 billion for IT research and 
development, 35 percent more than last year's appropriations.
    Under NSF's leadership, the agencies will continue to 
support the following goals, based on PITAC's recommendations: 
improvements in software to enhance privacy and security of 
data, along with improvements in the ease of use; continued 
advances in high-speed computing and communications; and a 
better understanding of the social, economic and other impacts 
of IT, with emphasis on ensuring that all Americans will 
benefit from these technologies. The President's request for IT 
research and development addresses all of these goals.
    Your NGI 2000 Act authorizes the large-scale networking 
component of our program, which represents about 13 percent of 
the President's overall fiscal year 2001 budget for information 
technology R&D. Your support, indicated in S. 2046, is a very 
important first step toward meeting our national needs for 
information technology research. Fast, reliable, ubiquitous 
networks provide the lifeblood for the 21st century economy.
    Networking research is a core element of our Federal IT 
research portfolio. And the Administration welcomes your 
support for these important activities.
    We feel strongly, however, that networking research must be 
conducted as an integral part of a program providing balanced 
investment in IT research, as well as research in social, legal 
and ethical issues raised by advances in information 
technology. This approach, which guided development of our 
interagency information technology R&D program, is consistent 
with PITAC's directive to strengthen our Federal information 
technology research programs by providing adequate funding for 
a complete and balanced IT research portfolio.
    We were pleased to see the Committee address one of the 
Administration's priorities, the digital divide, in several 
sections of the bill. We are concerned, however, that specific 
set-asides provided for institutions in rural communities and 
minority serving institutions may not be the most efficient and 
effective way to provide greater opportunities for these 
institutions. We would like to work with you to ensure that 
existing mechanisms and programs are strengthened, to permit 
greater participation in federally funded IT research and 
access to the IT R&D resources.
    Also, we note that the bill directs the National Academy of 
Sciences to conduct a digital divide study. The Administration 
believes that this requirement should be deleted, because it 
duplicates efforts already underway at the Department of 
Commerce.
    Finally, the proposed legislation does not appear to 
authorize funding for the National Oceanic and Atmospheric 
Administration, NOAA, a long-time participant in the Federal IT 
programs and one of the agencies developing key NGI 
applications. We hope that the subcommittee will modify its 
proposal to authorize funding for NOAA, as outlined in the 
President's budget.
    Mr. Chairman, as you know, our staffs have worked closely 
together during the initial drafting of your bill, and I am 
heartened to see the continued interactions our offices have on 
many issues of importance to the entire science and technology 
enterprise, and I thank you for that.
    So, in conclusion, we thank you and the subcommittee for 
your continued support of IT research. The strong bipartisan 
support generated by these and complementary proposals allows 
us to invest in America's future and ensure its continued 
prosperity. We believe strongly that the President's proposal 
for a comprehensive IT R&D portfolio is essential to the 
Nation's prosperity and its ability to secure public benefits, 
ranging from national security to environmental protection.
    And I look forward, Mr. Chairman, to working with the 
Committee on these issues in the weeks ahead. Thank you very 
much.
    [The prepared statement of Dr. Lane follows:]

Prepared Statement of Neal Lane, Ph.D., Assistant to the President for 
Science and Technology, and Director, Office of Science and Technology 
                                 Policy

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to testify about the important research and development 
investments proposed by S. 2046, the Next Generation Internet (NGI) 
2000 Act. These investments are a vital portion of the Administration's 
information technology (IT) research portfolio that strengthens and 
expands the important Federal networking research authorized, thanks to 
your sponsorship, by the NGI Act of 1998.
    The Administration has been very encouraged by the active 
bipartisan support which both chambers of Congress have provided for 
efforts to strengthen our nation's investments in information 
technology research and development and we look forward to continued 
support for the exciting new work proposed in the Administration's 
proposed FY2001 budget. Here in the Senate, your leadership, Mr. 
Chairman and that of the members of the Subcommittee, has been 
especially instrumental in helping your colleagues recognize that the 
advances in information technology which are so vital to the overall 
success of our nation's scientific and technical expertise, as well as 
to its economic prosperity, require a foundation of wise, sustained 
Federal research investments.
    We are enjoying a time of unprecedented possibilities and 
prosperity, built on advances in science and technology enabled by 
Federal support for R&D. Creative businesses have translated the 
results of Federally funded advanced research into innovative products 
and services enjoyed today. This innovation has improved our quality of 
life, strengthened our national security, and unleashed an 
extraordinary era of post-war economic growth. Many of America's 
industries are now the most competitive and technologically advanced in 
the world. The Federal government has had an important role in 
sharpening our high-tech edge. Through policies such as investing in 
education, encouraging private-public partnerships, and limiting 
regulation of the Internet, the Administration has enhanced 
opportunities for scientific discovery and allowed innovation to 
flourish. Most importantly, as the President noted in his February 24 
remarks to the Granoff Forum at the University of Pennsylvania, this 
Administration has worked to accelerate R&D at every level--pushing for 
an extension of the Research and Experimentation tax credit and 
increasing our national science and technology budget every single year 
over the last seven years.

The Nation Benefits from Federal IT R&D Investments

    The case for sustained and adequate Federal investments in R&D is 
made most dramatically in the information technology sector. The 
President's Information Technology Advisory Committee (PITAC) notes 
that ``that the technical advances that led to today's information 
tools, such as electronic computers and the Internet, began with 
Federal Government support of research in partnership with industry and 
universities. These innovations depended on patient investment in 
fundamental and applied research.'' The PITAC emphasizes, however, that 
continued Federal investment is essential to maintain this momentum. In 
their February 1999 report to the President, Information Technology 
Research: Investing in Our Future, the PITAC called for doubling 
Federal IT R&D investments over five years and expanding the existing 
coordinated interagency research programs to achieve a more balanced 
research portfolio. The Administration responded to the PITAC's 
proposals in FY 2000 with a major increase in IT research funding 
through the Information Technology for the Twenty-First Century 
initiative. We continue to build on the PITAC's recommendations with 
the programs recommended in the President's FY 2001 budget.
    Although the dividends that our nation has reaped from past Federal 
investments in computing and communications research are well recorded, 
they are worth repeating. Federal support of IT R&D, leveraged by 
industry and academia, has led to technical advances which today are 
transforming our society and driving economic growth and the creation 
of new wealth. New computing, networking, and communications tools 
allow Americans to shop, do homework, and get health care advice 
online, and enable businesses of all sizes to join the international 
economy. Since 1995, more than a third of all U.S. economic growth has 
resulted from IT enterprises, and during the past decade, more than 40 
percent of U.S. investment in new equipment has been in computing 
devices and information appliances. The IT sector is growing at double 
the rate of the overall economy and will soon account for 10% of the 
economy. Companies doing business on the Internet had an average market 
capitalization of $18 billion in 1999, more than 30 times the average 
market cap for all companies listed on the NASDAQ.
    As computers, high-speed communication systems, and computer 
software become more powerful and more useful, IT penetrates deeper 
into our home, work, and education environments. Nearly half of all 
American households now use the Internet, with more than 700 new 
households being connected every hour. More than half of U.S. 
classrooms are connected to the Internet today, compared to less than 
three percent in 1993. In 1993, only a few technical organizations knew 
what an address like http://www.senate.gov meant, and today, there are 
nearly 13 million registered addresses. Today, more than 13 million 
Americans hold IT-related jobs, which are being added six times faster 
than the rate of overall job growth. Over 800,000 jobs were created by 
IT companies in the past year alone.
    This astonishing progress has been built on a foundation of Federal 
agency investments in research conducted in universities, Federal 
research facilities, and partnerships with private firms. The Federal 
HPCC Program met its 1996 goals of demonstrating computers that perform 
a trillion operations per second and communication networks that 
transmit a billion bits per second. The Next Generation Internet 
initiative has exceeded its year 2000 goals by connecting more than 170 
universities and other research centers at rates 100 times faster than 
those available when the project began and more than 15 institutions at 
rates 1,000 times faster. Such ultra-high-speed networks provide 
desktop-to-desktop connections nearly 20 million times faster than 
typical Internet connections to home computers.

The President's FY2001 IT R&D Budget

    The President's FY 2001 budget reports all aspects of IT research--
the base HPCC programs (including Next Generation Internet) and the new 
activities established by last year's Information Technology for the 
Twenty-First Century initiative--in a single integrated IT R&D program. 
The President is requesting $2.315 billion for IT R&D, $594 million 
more than last year's appropriations and a billion dollars more than 
the FY 1999 appropriation. The largest increases above FY 2000 funding 
are proposed for the National Science Foundation, which is leading the 
interagency effort (+$223M), the Department of Energy (+$150M), the 
Department of Defense (+$115M), the National Aeronautics and Space 
Administration (+$56M), and the Department of Health and Human Services 
(+$42M).


                          IT R&D Budget Summary
------------------------------------------------------------------------
                                                               Percent
                                FY 2000 ($M)  FY 2001 ($M)    Increase
------------------------------------------------------------------------
Department of Commerce........          $36           $44            22
Department of Defense.........          282           397            41
Department of Energy..........          517           667            29
Environmental Protection                  4             4             0
 Agency.......................
Health and Human Services.....         $191           233            22
National Aeronautics and Space          174           230            32
 Administration...............
National Science Foundation...          517           740            43
TOTAL.........................       $1,721        $2,315           35%
------------------------------------------------------------------------


    Agencies will continue to support the basic goals established in 
last year's initiative, focusing on fundamental research in software; 
development of information systems that ensure privacy and security of 
data and allow people to get information they want, when they want it, 
in forms that are easy to use; support for continued advances in high-
speed computing and communications, including work needed to ensure 
that raw speed translates into usable speed; and work to understand the 
social, economic, and other impacts of IT with emphasis on ensuring 
that all Americans will benefit from these technologies. The U.S. 
research community responded to last year's call for research ideas 
with a flood of creative new proposals, a demand which far exceeded the 
supply of new funding in agencies such as NSF and DOD. As a result, 
with FY 2000 funding, NSF will start 25 small research centers and five 
larger centers.
    As in previous years, the proposed IT research portfolio is based 
on coordinated, interagency investments which leverage expertise across 
agencies to give the best returns on those investments, both financial 
and technical. FY 2001 IT R&D priority areas include:

Teams to Exploit Advances in Computing: Expanded activities by NSF, 
DOE, NIH, NASA, and NOAA will support new partnerships where 
information scientists, mathematicians, and experts in areas such as 
medical research, weather modeling, and astronomy can work together to 
build tools for solving the Nation's most pressing information 
problems. These partnerships will advance information science and lead 
to research breakthroughs in application areas.

Infrastructure for Advanced Computational Modeling and Simulation: In 
FY 2001, NSF plans to establish a second terascale (five trillion 
operations per second) computing facility to support the civilian 
research community.

Storing, Managing, and Preserving Data: Current networks and data 
storage systems are straining to support vast amounts of information. 
NASA's new earth observing satellite will generate data equivalent to 
three times the information in the Library of Congress every year. 
Research will include developing devices capable of storing a years 
output of such systems in devices the size of PC hard disks; searching 
data in a variety of formats including pictures, video, audio; and 
developing improved ways of filtering information, data mining, and 
tracking lineage and quality of information.

Managing and Ensuring the Security and Privacy of Information: Research 
will focus on systems that can ensure privacy and security without 
compromising speed and ease of use. DOE, for example, recently 
developed a prototype chip that can encrypt 6.7 billion bits per 
second. Work will accelerate in network protection and advanced 
encryption.

Ubiquitous Computing and Wireless Networks: This research will ensure 
that mobile and wireless systems can be integral parts of the Internet. 
These inventions will permit devices embedded in equipment, vehicles, 
portable or wearable devices such as medical monitoring equipment, and 
even kitchen appliances to identify themselves to networks 
automatically and operate with appropriate levels of privacy and 
security.

Intelligent Machines and Networks of Robots: Fundamental research in 
robots will help revolutionize our work and our lives--from earthmoving 
devices in hazardous environments to devices that fit inside blood 
vessels and help operating room surgeons to simple household robots. 
For example, NASA needs space probes that are smart, adaptable, 
curious, self-sufficient in unpredictable environments, and capable of 
operating in groups.

Future Generations of Computers: New paradigms will use advances in 
quantum computation and molecular and nano-electronics to devise 
radically faster computers to solve problems previously described as 
``uncomputable,'' such as full-scale simulations of our biosphere or 
surgical simulations. Viewing cells as computational devices will help 
enable the design of next generation computers that feature self 
organization, self repair, and adaptive characteristics that we see in 
biological systems.

More Reliable Software: Software bugs and glitches continue to shut 
down airports, delay product shipment dates, and crash 911 emergency 
systems. Methods to design and test software need to be as productive 
and predictable as tools used to design and test aircraft and bridges.

Broadband Optical Networks: DOD researchers have shown that optical 
networking can provide 1,000 times faster network backbone speeds. 
Improvements in optical switching and development of all-optical end-
user access technologies will let users take full advantage of these 
speeds.

Educate and Train a New Generation of Researchers: New investments will 
fund more researchers, who are critical to increasing both IT research 
and teaching, and support major research centers. Programs such as the 
teams to exploit advances in computing will provide opportunities to 
educate and train a new generation of researchers whose skills cross-
disciplinary boundaries.

Large Scale Networking (LSN) R&D

    The research priorities addressing network capabilities fall under 
the Large Scale Networking (LSN) R&D component of the coordinated, 
interagency IT R&D programs. Our ability to fully capture the future 
benefits of IT depends on learning how to build and use large, complex, 
highly-reliable and secure systems. The President's FY2001 budget 
proposes $334 million for LSN R&D, which includes:

<bullet>  the LSN base programs in traditional networking research to 
support agency mission requirements
<bullet>  the Next Generation Internet (NGI) initiative, and
<bullet>  research in Scalable Information Infrastructure (SII)

    LSN base programs explore long range fundamental networking 
research issues and transition developing LSN products into tools to 
support agency missions. Continuing the Federally-supported R&D 
responsible for the core technologies that made the Internet and 
Internet applications possible, LSN focuses on technologies needed by 
the Federal agencies, infrastructure to support agency networking, and 
networking applications development.
    Since its inception in 1998, the Next Generation Internet (NGI) 
initiative has been a primary focus of LSN, building on the LSN base 
programs to provide the networking research, testbeds, and applications 
needed to assure the scalability, reliability, and services required by 
the Internet over the next decade. The program has provided fast 
network testbed connections to 170 universities and other facilities, 
exceeding program goals for connecting 100 sites. It is now focused on 
two goals: providing revolutionary networking capable of operation a 
speeds a thousand times faster than typical systems operating when the 
program began, and providing key functionality for high speed networks 
including reliability, scalability, security, an ability to multicast, 
an ability to gracefully accommodate mobile wireless users and other 
users that may enter and leave the system, and other requirements of 
complex modern networks.
    Scalable Information Infrastructure (SII) is the newest component 
of LSN. It was developed in response to PITAC recommendations for an 
expanded Federal role in networking R&D that includes interoperability 
and usability. The SII research goal is to develop tools and techniques 
that enable the Internet to grow (scale) while transparently supporting 
user demands. An integral part of LSN, SII R&D complements the LSN and 
NGI efforts. SII research will focus on deeply networked systems: 
anytime, anywhere connectivity; and network modeling and simulation.
    The President's FY 2001 budget request by agency for the LSN 
component of IT R&D is as follows:



------------------------------------------------------------------------
                                                              FY 2001
                         Agency                             (millions)
------------------------------------------------------------------------
Department of Commerce..................................
  National Institute of Standards & Technology..........        4.2
  National Oceanic & Atmospheric Admin..................        2.7
Department of Defense...................................       87.2
Department of Energy....................................       32.0
Department of Health and Human Services.................
  Agency for Healthcare Research and Quality............        7.4
  National Institutes of Health.........................       65.6
National Aeronautics and Space Admin....................       19.5
National Science Foundation.............................      111.2

------------------------------------------------------------------------
* numbers may not add due to rounding

Next Generation Internet 2000 Act

    The Administration believes that the support for the LSN component 
of the coordinated, interagency IT R&D programs indicated in S. 2046, 
the Next Generation Internet (NGI) 2000 Act is an important first step 
towards meeting our national needs for IT research. Fast, reliable, 
ubiquitous networks provide the lifeblood for a 21st century economy. 
They are essential for the conduct of business providing tools that can 
tie even the smallest businesses into international production and 
sales networks and let businesses of all sizes speed the rate they 
develop, test, produce, and market goods and services worldwide. Modern 
information networks are becoming essential elements of education and 
training, critical for providing safe air and highway transportation, 
and central for strategies aimed at boosting national productivity 
while minimizing the impact of economic activity on the natural 
environment. Fast, flexible, easily reconfigured networks are essential 
tools for our nation's military at peace, at war, and in the multiple 
peacekeeping and other tasks they are asked to provide. This is clearly 
a vital element of our national IT research portfolio, and the 
Administration welcomes the Subcommittee's support in gaining funding 
for this important research.
    We feel strongly, however, that networking research must be 
conducted as an integral part of a program providing balanced 
investment in advanced software, high-end computing, high confidence 
systems, human-machine interface issues, and applications research 
which draw on innovations in both information science and research 
teams in areas such as advanced materials, climate and weather 
modeling, or astrophysics, as well as research into the social, legal, 
ethical and other issues raised by advances in information technology. 
This approach is consistent with the PITAC's directive to strengthen 
our Federal IT research programs by providing adequate funding for a 
complete and balanced IT research portfolio. We commend the 
Subcommittee for acknowledging in Section 3(1) of the bill the 
importance of supporting other IT research carried out by our Federal 
IT R&D programs. The language of the bill indicates, somewhat 
confusingly, that these activities should be authorized through the 
Next Generation Internet Program and the Large Scale Networking 
Program. However, the other elements of the Federal IT R&D program are 
complementary to, not subordinate to, the networking research 
authorized by the bill.
    Networking research must be tied closely to research on the 
computers, the software, and the applications that drive them. Many of 
the most intractable problems in network research involve management of 
networks which may connect millions or even billions of nodes, 
providing high security and privacy at low cost in dollars or 
communication speed, and building systems which do not fail 
catastrophically when faced with component failures or hostile 
intrusion. All of these areas require close collaboration with 
researchers working software, the next generation of computers, and 
other parts of the information technology research program supported in 
our budget.
    The President's FY2001 IT R&D budget presents all IT research, 
along with networking research, in a balanced R&D portfolio, as 
recommended by the PITAC. We hope that the Senate will support 
authorization for the entire range of information technology research 
as proposed by the President's budget and in accord with the PITAC's 
recommendations.
    We were pleased to see the Committee's interest in providing the 
resources of information technologies to minority-serving institutions, 
rural communities and other underserved areas and groups. As you know, 
the Administration is seriously concerned about the nation's digital 
divide and its impact on the ability of these institutions to 
participate in our research enterprise. However, we believe that the 
bill is too prescriptive in providing resources for research on 
infrastructure for rural, minority and small colleges. Programs such as 
EPSCoR and the Minority Institutions Infrastructure already provide 
mechanisms through which these issues can be addressed. Also, starting 
with its new FY 2000 funding for IT R&D, the NSF has called on 
proposers to explore linkages with other institutions including HBCUs, 
Hispanic institutions, EPSCoR states and others to broaden the 
participation in the program. This strategy is used in many other ITR&D 
programs and links traditionally strong majority institutions with the 
strengths at HBCUs. We are concerned that specific set-asides provided 
through the legislation may not be the most efficient and productive 
way to provide greater opportunities for these institutions. We would 
like to work with the Committee to ensure that existing programs are 
strengthened to permit greater participation in Federally-funded IT 
research and access to IT R&D resources.
    We note that section 7 of the bill directs the National Academy of 
Sciences to conduct a digital divide study. The Administration believes 
this requirement should be deleted from the bill because it duplicates 
efforts already underway at the Department of Commerce. Commerce's 
National Telecommunications and Information Administration published 
the first ``digital divide'' study in 1995. Its most recent study, 
``Falling Through the Net: Defining the Digital Divide'' (July 1999), 
has become the leading source of critical information on Internet 
access and computer usage. The NTIA study uses data collected by 
Commerce's Bureau of Census. The President's 2001 budget includes 
funding to permit NTIA to make this an annual study.
    Many of the funding levels authorized by S. 2046, as introduced on 
February 9, are consistent with those proposed for the LSN R&D programs 
in the President's FY2001 budget. One exception is that the proposed 
legislation does not appear to authorize funding for the National 
Oceanic and Atmospheric Administration (NOAA). NOAA is a long-time 
participant in the Federal LSN programs, including the Global Ocean 
Interactive Network (GOIN) demonstration project in March 1999 which 
linked U.S. ocean researchers with partners in Japan. Using links 
supplied by NASA, DOD, and NSF, NOAA's Pacific Marine Environmental 
Laboratory (PMEL) demonstrated the first NOAA applications over the 
NGI, including Ocean Share, a collaborative environment for 
oceanographic research, and 3-D tools using VRML to demonstrate the 
evolution of El Nino, fisheries larval drift, and fur seal feeding 
trips. Further research will include exploring methods of using 
advanced networks for aggregating the vast quantities of data from 
NOAA's satellite and radar weather sensors and multicasting the data to 
the nation's research community for the development of improved weather 
forecasting, developing tools to enhance collaboration among 
atmospheric scientists and oceanographers over the NGI, and increasing 
the robustness, security, and flexibility of networks for environmental 
research. We hope that the Subcommittee will modify its proposal to 
authorize funding for NOAA, as outlined in the President's budget.
    Finally, although it received separate authorization in the NGI Act 
of 1998, the work on the Next Generation Internet initiative has always 
been an integral part of ongoing work in the Large Scale Networking 
component of the coordinated, interagency IT R&D program. This year, as 
noted above, LSN includes not only the base programs and NGI, but also 
expanded research in Scalable Information Infrastructure research. It 
appears that all of these elements, which are combined in the LSN R&D 
portion of the overall IT R&D program we plan to undertake, are 
authorized by S.2046. The Administration clearly prefers that the 
Committee take a more comprehensive approach to authorizing IT 
research. While the Committee takes this suggestion under advisement, 
we would urge you to refer to the programs authorized by the current 
proposed legislation as Large Scale Networking, rather than by the name 
of one of the program subcomponents (NGI).
    I hope that we can work with the Committee to make these 
modifications and resolve any other issues during the weeks ahead.

Conclusion

    We thank the Subcommittee for its continued support of these vital 
research programs, first through the NGI Act of 1998 and now with the 
proposed NGI 2000 Act. These investments are an essential part of a 
larger, balanced portfolio of research developed according to the 
PITAC's directives for adequately funding our Federal IT research 
programs. The strong bipartisan support generated by these and 
complementary proposals allow us to invest in America's future and 
ensure its continued prosperity. We hope that we can work with the 
Committee to support the entire IT research portfolio proposed by the 
President. We believe strongly that this program provides a balanced 
program of research essential to the nation's prosperity and its 
ability to secure public benefits ranging from national security to 
environmental protection. I look forward to working with the Committee 
on these issues in the weeks ahead.

    Senator Frist. Thank you, Dr. Lane.
    Dr. Colwell.

        STATEMENT OF RITA R. COLWELL, PH.D., DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Colwell. Chairman Frist and members of the 
Subcommittee, I thank you for inviting me to testify at this 
very important meeting. I welcome the opportunity to discuss 
how NSF has promoted excellence in computer and information 
science research and how we can all be confident that NSF's 
investments deliver a high return to the taxpayer.
    I have prepared a written statement that I will submit for 
the record and I will be very brief in my summary.
    Mr. Chairman, the Next Generation Internet program has been 
a tremendous success. The NGI has helped pushed the frontiers 
of computer and information science and engineering. It has 
allowed scientists and engineers across the country to do 
first-class, cutting-edge research. And the NGI has fostered 
the rapid transfer of research ideas to the private sector, 
helping to fuel the economic engine of the country.
    But, I should point out, technology transfer is only part 
of the NGI's contribution. A broader and perhaps more important 
trend has been the transfer of people, trained in the most 
cutting-edge IT concepts, to the private sector. In a 
preliminary review of the NGI program, the President's 
Information Technology Advisory Committee, which we all refer 
to as PITAC, found that numerous NGI-funded scientists, 
engineers and students, who were first funded at universities, 
have gone on, in just a few short years, to found startup 
companies with an estimated market capitalization of about $27 
billion.
    Mr. Chairman, as my friend and colleague, Neal Lane, has 
just mentioned, the economic impact of IT investments has been 
enormous. The challenge now is to sustain this record of 
success. Last year, the PITAC concluded that Federal support 
for long-term research on information technology has been, in 
their words, ``dangerously inadequate.'' This has led to the 
governmentwide initiative in Information Technology R&D, for 
which NSF is the lead agency.
    NSF investments in high-speed networking research are an 
integral part of the IT R&D initiative. Mr. Chairman, the NGI 
program has been a great success in knowledge transfer, as I 
have mentioned.
    We have also seen impressive gains in the geographic reach 
of high-speed connections. The NSF has had as its original goal 
under the NGI program to connect 100 universities, using the 
vBNS network. Today I am pleased to announce that over 170 
connections, and the awards for these connections, have been 
made to U.S. universities. This includes over 40 universities 
in EPSCoR states, nearly one-quarter of the total. We have also 
taken steps to improve connectivity to Hispanic, Native 
American and historically black colleges and universities, 
through a 4-year, $6 million award to Educause.
    Now just hooking up campuses to backbone networks is not 
enough to achieve true high-speed connectivity everywhere. New 
research problems have to be solved so that all of us can 
benefit. For example, achieving high performance from end user 
to end user, the so-called broadband last mile problem, remains 
difficult. Some commentators have remarked that the current 
network situation is a lot like having a four-lane highway, 
beginning the highway but not having the ending or leaving the 
ending with dirt roads. You cannot have the highways and then 
dirt roads.
    Meeting this challenge and other related challenges, such 
as user authentication and verification, will be a major focus 
of future NSF networking efforts--what I guess we could refer 
to as the next Next Generation Internet.
    Mr. Chairman, in marking the 50th anniversary of the 
National Science Foundation, we are celebrating vision and 
foresight. And I would remark that the recently retired hockey 
great Wayne Gretsky used to say: I skate to where the puck is 
going, not where it has been. So, at NSF, we try to fund where 
the fields are going, not to where they have been. Our task is 
to recognize and nurture emerging fields and to support the 
work of those with the most insightful research. And we prepare 
future generations of scientific talent.
    To conclude, Mr. Chairman, let me again thank you for 
holding this hearing so that we may exchange views on the 
future direction of this important area. Let me also restate 
the NSF's willingness to work with you and the entire 
Subcommittee to ensure a robust Federal IT investment, 
including the NGI program.
    And we look forward especially to extending the Federal IT 
partnership to help ensure U.S. world leadership in information 
technology. Thank you.
    [The prepared statement of Dr. Colwell follows:]

           Prepared Statement of Rita R. Colwell, Director, 
                      National Science Foundation

    Mr. Chairman, members of the Subcommittee, thank you for allowing 
me the opportunity to testify on the National Science Foundation's role 
in fostering the next stages of the information revolution.
    I am pleased to be here today. This is a topic of utmost importance 
for the future of our nation's economy and the well-being of our fellow 
citizens. A healthy, long-term federal investment in high speed 
networking and information technology overall is critical if the United 
States is to remain a world leader--not only in science and 
engineering--but in our economy, national security, health care, 
education and overall quality of life.
    My prepared remarks today will include a short history of NSF's 
support for cutting edge concepts in high-speed networking and their 
transfer to the private sector along with a brief discussion of the 
following topics:

    <bullet>  NSF's participation in the multi-disciplinary Federal 
Information Technology Research and Development Initiative (IT R&D) for 
which NSF is the lead agency;
    <bullet>  NSF's participation in the Next Generation Internet 
Program--an integral component of the IT R&D initiative--our 
cooperation with private industry through the rich transfer of new 
ideas to the private sector, our cooperation with the other NGI 
agencies;
    <bullet>  NSF's efforts to promote connectivity and access for all, 
including our efforts to improve connectivity for rural and minority-
serving institutions and our strong support for cutting-edge education 
activities designed to ensure that our citizens will have the 
scientific, mathematical, engineering, and technological expertise 
needed to excel in tomorrow's knowledge-based economy.

NSF Support for High-Speed Networking: A Record of Accomplishment

    Mr. Chairman, this Subcommittee has long been a strong, bipartisan 
supporter of the federal investment in IT R&D. In the early 1980's, 
this Subcommittee strongly encouraged NSF to invest in high-performance 
computing resources for the nation's academic scientists and engineers. 
The subcommittee also was a leader in the enactment of the High 
Performance Computing Act of 1991. This leadership continued with the 
passage of the bipartisan Next Generation Internet Act of 1998.
    With this backing from the Subcommittee and the entire Congress, 
NSF has continued to support some of the most successful and innovative 
computer-communications concepts and technologies at their earliest, 
most experimental stages. NSF funded university-based supercomputer 
centers in the mid-1980's to provide academic scientists and engineers 
with access to state-of-the-art computing power.
    To facilitate access to the centers, NSF began a parallel effort in 
networking. It built on fundamental investments by DARPA in a more 
restricted environment, and resulted in the formation of the national 
NSFNET backbone network and regional networks connecting university 
students and faculty to the supercomputing centers. In a very brief 
period of time, NSFNET and the regional networks began performing 
important communication and information access functions in addition to 
supercomputer center access. Through this development and its 
subsequent privatization, the Internet industry was born.
    Mr. Chairman, the story of NSF's longstanding support for backbone 
networks is now well known but it is only one example of how 
fundamental IT investments by NSF and other agencies have paid huge 
dividends for the nation. Support of fundamental networking research 
has received less publicity but is equally important to the future of 
information science and technology.
    For example, it was David Mills, an NSF grantee at the University 
of Delaware, who made it possible to have one Internet as opposed to a 
Tower of Babel of competing electronic networks. Mills developed the 
first widely-used Internet routers--the gateways and switches that 
guide the bits and bytes of data around the globe at the speed of 
light. That's why many people say NSF put the ``inter'' in Internet. 
Today CISCO Systems--the premier maker of Internet router technology--
now has a market capitalization of $454 billion dollars.

Knowledge Transfer Not Just Technology Transfer

    Innovations like the Internet router only occurred through 
sustained, long-term federal investments in information science and 
engineering by many agencies. One might think that these past successes 
assure us of an equally bright future. Unfortunately, in a fast paced, 
technologically-rooted information age, the worst thing we could do is 
rest on our laurels.
    The key point is that the IT R&D conducted by private industry--be 
it performed by large or small firms--is now primarily near-term and 
product-focused. There are many reasons for this trend. With increased 
global competition, increasingly rapid product cycling and high 
expectations from shareholders, IT industry managers tend to focus on 
activities that maximize short-term payoffs. Market pressures are often 
too great and technology changes too rapid to allow for major 
investments with a long-term perspective.
    When the subject of technology transfer is brought up, there is one 
aspect of the impact of basic research that is often overlooked--the 
role of NSF's investments in people. NSF's Engineering Directorate 
recently sponsored a set of studies on today's leading technologies: 
areas like cell phones, fiber optics, and computer assisted design. 
It's well known that the great majority of the seminal work in these 
areas was performed by private industry--at labs like Corning, AT&T, 
and Motorola.
    Does that mean that NSF had no role? Hardly. When you go back and 
look at the work, a clear pattern emerges. Scientists and engineers who 
went to graduate school on NSF fellowships and research assistantships 
often brought the key insights to industry. In a number of cases, they 
became the entrepreneurs who created new firms and markets.
    To quote from the study--``NSF emerges consistently as a major--
often the major, source of support for education and training of the 
Ph.D. scientists and engineers who went on to make major 
contributions....'' It is this transfer of people--the highly trained 
scientists and engineers supported by NSF and other agencies--that is 
making a tremendous impact on our knowledge-based economy.
    The NGI program is a tremendous success in this regard. In a 
preliminary review of the NGI program, the President's Information 
Technology Advisory Committee (PITAC) found that numerous NGI-funded 
scientists, engineers and students--first funded at universities--have 
gone on in just a few short years to found start-up companies with an 
estimated market capitalization of over $27 billion.

Information Technology Research (ITR)

    The impact of information technology on our society has been much 
wider and much more pervasive than anyone could have anticipated just a 
few years ago. Advances in computing, communications, and the 
collection, digitization and processing of information have altered the 
everyday lives of all our citizens.
    There is no question that as Internet growth has gone through the 
roof, IT has become the essential fuel for the nation's economic 
engine. Even the ever-cautious Fed Chairman Alan Greenspan has pointed 
to innovations in IT as the driving force behind our strong economic 
growth.
    The numbers speak for themselves. As Neal Lane has mentioned, more 
than a third of our economic growth in the past five years has resulted 
from Information Technology. IT investments have spurred an enormous 
upswing in worker productivity that has fueled the current economic 
boom. The challenge now is to sustain this record of success.
    Last year, the PITAC concluded that federal support for long-term 
research on information technology has been ``dangerously inadequate.'' 
In its words ``support in most critical areas has been flat or 
declining for nearly a decade, while the importance of IT to our 
economy has increased dramatically.'' This has led to the government-
wide initiative in Information Technology R&D for which NSF is the lead 
agency.
    The Information Technology Research Initiative at NSF will 
emphasize research and education on a broad range of topics. Focus 
areas include:

  <bullet> Advancing computer system architecture; research on 
    software, hardware, system architectures, operating systems, 
    programming languages, communication networks, as well as systems 
    that acquire, store, process, transmit, and display information.
  <bullet> Improving information storage and retrieval; research on how 
    we can best use the vast amount of information that has been 
    digitized and stored.
  <bullet> Connectivity and access for all; research that aims to 
    overcome the digital divide separating the information ``haves'' 
    from the ``have-nots'' and research on inequality of access to and 
    use of computing and communications technology.
  <bullet> Scalable Networks of Embedded Systems; As the scale of 
    integration of systems that may be achieved continues to grow, 
    systems must be designed with both hardware and software aspects 
    treated from a unified point of view.
  <bullet> Novel approaches; new models of computation and physical 
    processes such as molecular, DNA and quantum computing. These 
    efforts are deeply anchored in the mathematical and physical 
    sciences and the biosciences.

    Through our part of the multiagency IT R&D program, the 
InformationTechnology Research (ITR) initiative, NSF will seek to 
strengthen Education in IT, including:

  <bullet> programs that provide scholarships, fellowships and 
        traineeships;
  <bullet> improved undergraduate research participation;
  <bullet> encouragement of graduate students to participate in K-12 
        education; and develop new curriculum; and
  <bullet> research aimed at understanding the causes of 
        underrepresentation of various segments of society in the 
        workforce.

    NSF will also increase research on Applications of IT across fields 
of science and engineering. This will also be a critical component of 
the ITR initiative. This includes simulation to tackle research 
problems across the frontiers of science and engineering. Important 
networking applications include:

  <bullet> Collaboration Technologies
  <bullet> Digital Libraries
  <bullet> Distributed Computing
  <bullet> Remote Operations and
  <bullet> Security and Privacy issues

    Finally through the ITR Initiative, NSF will increase it's support 
for Infrastructure including the Next Generation Internet Program. 
Support for infrastructure will include:

  <bullet> computing facilities ranging from single workstations to 
        clusters of workstations to supercomputers of various sizes and 
        capabilities;
  <bullet> large databases and digital libraries, the broadband 
        networking, data mining and database tools for accessing them;
  <bullet> appropriate bandwidth connectivity to facilitate interactive 
        communication and collaboration and software to enable easy and 
        efficient utilization of networked resources; and
  <bullet> networks of large and small physical devices.

NGI Connections at NSF: A Tremendous Success

    Mr. Chairman, the NGI program has been a great success. Enabled by 
fundamental advances in optical networking under supported by DARPA and 
NSF, the number of very high performance networks has increased and the 
available bandwidth for research and education has had phenomenal 
growth.
    A diverse array of US universities in all 50 states now have high-
speed connectivity thanks to NGI investments. In fact, many more 
institutions than originally anticipated now have high-speed access 
thanks to the program. Connectivity to Alaska and Hawaii has improved 
dramatically as well.
    NSF's original goal under the NGI program was to connect 100 
universities using the vBNS network and the Internet2 Coalition's 
Abilene network. Today NSF is excited that over 170 university 
connection awards have now been made. This includes over 40 
universities in ESPCoR states--nearly one-quarter of the total.
    This increase in connectivity has resulted in interest in high 
performance networking in both academia and industry. It has had 
enormous impact on the knowledge transfer I mentioned earlier. Having 
so many more scientists, engineers and students from across the nation 
involved in high-speed networking activities has dramatically increased 
the available talent pool for industry.
    Universities form a rich, fertile proving ground for new network 
ideas and concepts that can be quickly transferred to the private 
sector. Without consistent federal funding, such a well-spring of ideas 
could run dry.

What's Next for NGI: The Next-Next Generation Internet

    In marking our 50th anniversary, we are celebrating vision and 
foresight. The recently retired hockey-great, Wayne Gretzky, used to 
say, ``I skate to where the puck is going, not to where it's been.''
    Mr. Chairman, at NSF, we try to fund where the fields are going, 
not to where they've been. We have a strong record across all fields of 
science and engineering for choosing to fund insightful proposals and 
visionary investigators.
    It is our job to keep all fields of science and engineering focused 
on the furthest frontier. Our task is to recognize and nurture emerging 
fields, and to support the work of those with the most insightful 
reach. And, we prepare future generations of scientific talent.
    In this tradition, NSF is looking at new directions for the NGI 
program. One trend is clear: high-speed fiber backbone networks are 
rich seed beds for new capabilities.
    Now that connectivity has been dramatically increased, new 
fundamental research problems must be tackled. In today's networked 
world, dramatic increases in backbone speed do not automatically 
translate into dramatic increases in performance. Many of these 
problems will not be easily solved without new, novel approaches.
    Today, achieving high performance from end user to end user--the so 
called Broadband Last Mile Problem--remains difficult. Some 
commentators have remarked that the current situation is like having a 
four-lane highways beginning and ending with dirt roads.
    To increase backbone speed, efficiency and stability, we will need 
fundamental research into new middleware network service capabilities. 
This includes research in user authentication and verification, 
distributed computing services, and distributed storage services. Also, 
NSF will support research dealing with satellite and other wireless 
technology to help reach into areas where wireline and fiber are not 
possible or practical.
    We will also need research into new optical access technologies. In 
the future optical backbones will use more and more optical routing. 
Research is needed to discover how to appropriately extend the reach of 
these technologies. This will correspondingly extend the reach of 
networks and ensure that institutions not now taking advantage of high 
performance networking have the opportunity to do so.

Bridging the Digital Divide

    This brings me to my last point. Today we find ourselves on a 
precipice--looking down into that worrisome gap known as the digital 
divide. We are all here today because we believe in the power of 
information technology to bring about the most democratic revolution in 
literacy and numeracy the world has ever known.
    We also know that if we're not careful, this same power could be 
economically divisive. We imagine universal connectedness, with talk of 
``tetherless networks'' that anyone could tap into anytime, anywhere.
    But we could also broaden the gap between the information rich and 
the information bereft. In our own nation, sociologists have identified 
groups whose access to telephones, computers, and the Internet lag far 
behind the national averages.
    These information gaps appear among nations as well. Most of those 
who live in the Third World have never used a telephone. Our worldwide 
web is a thinly stretched one. Less than two percent of the world is 
actually on the web. If we subtract the United States and Canada, it's 
less than one percent.
    The report by the President's Information Technology Advisory 
Committee (PITAC) spells out some of these gaps. ``For instance,'' says 
the committee, ``whites are more likely than African-Americans to have 
Internet access'' at home or work. ``We expect there are similar gaps 
with other minority groups, such as Hispanics and Native Americans. 
Recent research...suggests that the racial gap in Internet use is 
increasing.''
    In September 1999 NSF made a four-year $6 million award to EDUCAUSE 
to help minority-serving institutions develop campus infrastructure and 
national connections. The award addresses Hispanic, Native American, 
and Historically Black Colleges and Universities. The scope includes:

<bullet>  Executive awareness, vision, and planning
<bullet>  Remote technical support centers
<bullet>  Local network planning
<bullet>  Local consulting and training
<bullet>  Satellite/wireless pilot projects
<bullet>  New network technologies: Prototype installations
<bullet>  Grid applications

Conclusion

    To conclude Mr. Chairman, let me again thank you for holding this 
hearing so that we may exchange views on the future direction of this 
important area. Let me also restate NSF's willingness to work with you, 
the subcommittee and the full committee to ensure a robust federal IT 
investment including the NGI program. The PITAC report has raised 
important concerns over our lack of federal investment in fundamental 
IT research and we at NSF are responding to the challenge. We look 
forward to extending the federal IT partnership to help ensure U.S. 
world leadership in IT.
Thank you.

    Senator Frist. Thank you, Dr. Colwell.
    Dr. Lindberg, welcome. And you can remind everybody who the 
first physician was to use the National Library of Medicine 
Internet base.
    Dr. Lindberg. I might just do that.
    Senator Frist. Dr. Lindberg, you are welcome. It seems like 
yesterday, by the way, although many things have occurred since 
then.

  STATEMENT OF DONALD A.B. LINDBERG, M.D., DIRECTOR, NATIONAL 
                      LIBRARY OF MEDICINE

    Dr. Lindberg. Thank you, Mr. Chairman. Like Dr. Colwell, I 
have a full statement for the record, and I will make a very 
much abbreviated set of remarks if you will permit.
    The Next Generation Internet and large-scale networking 
project that you are considering is extremely important and 
will be helpful to the country. I think it should be viewed as 
a continuation of the High-Performance Computing and 
Communications program that began in 1991 in legislation, and 
1992 in action, and extended up through 1997, as well as of 
course the Internet today, which shows much of its success 
because of the HPCC program.
    I have a bias, because I was asked to be the first head of 
the National Coordination Office of the HPCC program as it 
operated under OSTP. And I did so from 1991 to 1995 very 
happily. Consequently, I have a profound respect for the 
goodness of the scientific collaboration one can obtain from 
members of the other Federal agencies and the importance of 
pulling together when the effort is warranted by a major 
national need.
    The Internet today has certainly helped and changed the 
National Library of Medicine. And as you noted, you presided, 
at a very signal moment; namely, on April 16, 1996, when you 
did the first public search of MEDLINE on the World Wide Web.
    Senator Frist. And better yet, I searched for my name, and 
we found some articles there, scientific articles.
    [Laughter.]
    Dr. Lindberg. They were good ones.
    As a matter of fact, at that time, we were doing roughly 7 
million searches a year of MEDLINE. And that event started an 
escalation of use that really has been quite remarkable. We are 
now up to 250 million searches per year on that same data base, 
which, as I say, you first inaugurated.
    We are really not surprised, in a way, because MEDLINE is 
essential for the conduct of modern science and the conduct of 
modern health care when one is after up-to-date scientific and 
medical information. We were surprised, however, that about a 
third of these MEDLINE searches now are conducted by the 
public, by patients, families and friends. That is to say, non-
doctors, non-medical scientists.
    Because of this surprising event, we created a new data 
base, called MEDLINEplus, which is aimed directly at the 
public. And this is now off and running, a rather good success. 
I can give you more information about that if you wish.
    We added to this complex just yesterday morning a data base 
called Clinicaltrials.gov, which gives detailed information on 
behalf of the 4,000 clinical trials that NIH either conducts or 
supports in 47,000 locations.
    Because not every household in the U.S. has a personal 
computer and a World Wide Web connection, we started studies a 
couple of years ago with 39 public library systems to try to 
discover if help could be found for those who would otherwise 
be forgotten. This has been a helpful program, and it has given 
us the basis for a new set of outreach grants, some 49 in 
number, which are meant to encourage partnerships between 
medical libraries, which really are still pretty key in this 
field, and community, especially rural, organizations. The 
latter include public libraries, churches, elder care 
institutions, and really all those who will encourage the 
spread of electronic health information to the public.
    I might insert that I wholeheartedly agree with you that we 
cannot forget to get Internet everywhere, or Next Generation 
Internet, everywhere in the country where it is needed, 
including the last mile or yard or inch.
    I should mention that one other part of the National 
Library of Medicine which has benefited greatly from the 
improving network system. This is the National Center for 
Biotechnology Information, where Genbank and the results of the 
Humane Genome Project come to reside. They are very much 
dependent upon Next Generation Internet for their ultimate 
success.
    As you know, the real product of the Human Genome Project, 
this worldwide distributed experiment, is information. There is 
only one human genome, we believe. The information all comes to 
reside at NCBI, that is to say NLM. It is exchanged daily 
between the U.S., Europe and Asia. There are now 5 million DNA 
sequences, made up of 5 billion nucleotide-based pairs. A sort 
of amazingly symmetrical set of numbers.
    All this would be wholly unthinkable without high-speed and 
reliable network connections. Again, I could comment more about 
the details of that matter.
    I should mention specifically support by the National 
Library of Medicine of NGI biomedical developments. This really 
started in 1992, with our request for biomedical participation 
in the High-Performance Computing and Communication program. We 
originally couched this request in terms of the areas that had 
been cited in the guideline legislation.
    I will not recite those six categories. But we actually 
found, to our surprise, that by far the more scientifically 
meritorious proposals all fell in the area of telemedicine. 
Consequently, our next request for solicitations in 1995 
focused on telemedicine. And these awards were, scientifically 
and medically, extremely interesting. In fact, to this day, 
they continue to yield important insights both in medicine and 
communications technology.
    In 1998, NLM requested phase I NGI proposals along the same 
lines. In this case, of course, the proposals for NGI were 
somewhat different, because the NGI program speaks of 
technology that does not exist at the moment and has 
applications in areas that would not be possible without the 
new technology. Consequently, there are new challenges for 
medical institutions to participate.
    That was the reason we made the awards bi-phasic. 
Nonetheless, we awarded about two dozen phase I awards, and 
then a reduced number of larger phase II awards for the most 
successful ones. I am prepared to go through these and describe 
these in detail, but I think for the moment you might allow me 
just to mention a few examples of the types: privacy of 
computers based on patient records, tele-immersion teaching of 
surgical anatomy, nomadic computing as practiced by ambulances 
and helicopters, tele-mammography networks, multi-center 
clinical trials, telemedicine with nursing homes, and radiation 
treatment planning. These are examples.
    The lessons learned so far, in my view, are pretty 
straightforward. First, there are increasingly numerous 
interesting and useful biomedical applications in these 
advanced networks. In other words, it is a very useful field. 
And, second, biomedical applications do seem to be different 
from the rest and require more than just speed. I will give you 
four things that are examples of what is more than just speed.
    Firstly, quality of service is probably much more important 
for the health applications than any other single element. 
Second, medical data privacy. Without that, we are never going 
to get day-to-day useful ordinary applications. Security, in 
the sense that every other system needs it. We do not want to 
be destroyed by hackers. And then, fourthly, an element which 
is called nomadic computing. It sounds a little strange, but it 
fits the wandering style of the physician who moves from clinic 
to clinic and floor to floor and hospital to hospital.
    Also, as it turns out, one of our awards meets the 
wandering style of the young mother, who is a working mother 
and trying to keep in contact with the pediatrician and the 
child and the drug store and all the other things that modern 
life is beset by. So nomadic computing turns out to be a pretty 
solid specification.
    Now, we need to translate all this into proper engineering 
and physics. Bits per second, packet length, jitter, latency, 
these kind of figures. These do not have much meaning medically 
yet. So our objective is to translate that so that we know what 
medical procedures and decisionmaking require for that level of 
communication. That is really the major task.
    There is another side of it, I must say, I find equally 
interesting; namely, what kind of practice can be enabled by 
this work. Is tele-dermatology a very good application? It 
seems like it. Is home health care going to be a radically new 
departure? Can we improve the quality of care and reduce the 
errors in decisionmaking? I think all those are quite possible.
    So, in a way, I am prepared to give examples, but I think, 
in truth, the best is yet to come. Every week we see really 
good new applications of biomedical uses of the Next Generation 
Internet. And I heartily endorse your help to that program.
    Thank you for the opportunity to be here.
    [The prepared statement of Dr. Lindberg follows:]

      Prepared Statement of Donald A.B. Lindberg, M.D., Director, 
                      National Library of Medicine

Mr. Chairman and Members of the Subcommittee:

    It is a pleasure to report to you on the role of the National 
Library of Medicine in helping the health sciences prepare to use the 
capabilities of the Next Generation Internet for the betterment of the 
public health. You may recall that from 1991 to 1995 I had a dual 
appointment as both NLM Director and head of the OSTP Coordination 
Office for High Performance Computing and Communications. This was a 
major interagency program that included 14 departments and agencies. At 
that time the Internet was still ``terra incognita'' to most of the 
medical community, and I was pleased to be able to help establish a 
medical component in the HPCC arena.
    Much has changed in the past few years, and, Mr. Chairman, as you 
may recall, you played an important role in that evolution. On April 
16, 1996, you conducted the first public search of our database, 
MEDLINE, on the World Wide Web. Since that time, MEDLINE usage has 
soared from 7 million searches a year to a current rate of 250 million. 
Health professionals and scientists, of course, see Web-based MEDLINE 
searching as a great asset in their research and clinical care. They 
can now easily find out what their colleagues are publishing by 
searching an up-to-date database of more than 10 million scientific 
journal article references and abstracts. What amazed us, however, was 
to discover that MEDLINE is also being used by the general public. We 
estimate that about 34 percent of all MEDLINE searches are done by the 
public--for information about their own health and that of family 
members and friends.
    We realize that not everyone has direct access to the Internet and 
can take advantage of MEDLINE or our new consumer health site, 
MEDLINEplus. To help remedy this, last month the Library made 49 
``outreach'' (attached) awards to medical libraries around the country. 
The aim is to help them to work with local public libraries, schools, 
senior centers, and other community organizations to help bring the 
benefits of electronic health information to those who otherwise would 
be forgotten. I believe that all of us, not just those concerned 
specifically with the Next Generation Internet, should seek ways to 
ensure that all Americans have access to the information they need to 
keep themselves healthy.
    To ensure that the Internet will continue to support the health 
sciences, the NLM is a strong supporter of the Next Generation Internet 
effort. To help create a sound theoretical underpinning for medicine 
and the NGI, we have sponsored a number of research projects in 
universities and hospitals and also studies by the Institute of 
Medicine (on Telemedicine) and the Computer Science and 
Telecommunication Board (on Data Privacy). All conclude that health 
care and biomedicine place important demands on the capabilities of the 
future Internet in such areas as quality of service, medical data 
privacy, and system security.
    These elements are important considerations in many of the testbed 
applications the Library has supported over the last several years. 
Spread out over three phases, the NLM will support more than $45 
million in NGI projects. These include telemedicine-related projects, 
advanced medical imaging, and patient-controlled personal medical 
records systems. These projects have given rise to a new nomenclature, 
for example, tele-immersion, tele-presence, tele-trauma, tele-
mammography, tele-psychiatry, internetworking, and nomadic computing. 
Spanning the generations, from at-risk infants in Boston to home-bound 
seniors in Missouri, this research seeks to improve quality, lower 
costs, and increase effectiveness for delivering health care. We hope 
the projects will lead to new applications based on the ability to 
gather information at a distance and to transfer massive amounts of 
data instantaneously and accurately while maintaining medical data 
privacy. In the last phase of our support, in FY 2001, there will be a 
set of meetings to record ``lessons learned'' from this work and also a 
scale-up of selected promising projects to regional or national level.
    Advanced medical imaging is a special category that requires more 
bandwidth than is currently available on the Internet. The extremely 
large size of NLM's Visible Human image datasets challenges existing 
storage and network transmission technologies. A full set of the 
images--both electronic and photographic--would require the capacity of 
more than 100 CD-ROMs. Since this is obviously impractical, we are 
investigating advanced compression and networking techniques to 
minimize storage capacity and improve transmission speed over the 
Internet. The need for such techniques is even greater when we consider 
that we are currently working with other NIH Institutes and the 
National Science Foundation to create a super-detailed head and neck 
anatomical atlas. We will also include appropriate image manipulation 
tools for use via the Internet, based on open software conventions.
    Another area of medical science that requires increased 
communication capabilities is human genome research. As you may know, 
the NLM's National Center for Biotechnology Information (NCBI) 
maintains the enormous GenBank database of molecular sequences. It now 
contains some 5 million nucleotide sequences with a total of nearly 5 
billion base pairs, and the Web site where GenBank is made freely 
available, receives some 800,000 queries per day from 120,000 
scientists and others around the world. In addition to academic 
institutions, major biotechnology and pharmaceutical firms are among 
the heaviest users of the NCBI Web site. They not only search GenBank, 
but use NCBI-created computational tools such as that which allows 
researchers to use the growing body of known 3-dimensional structures 
to infer approximate 3D sequence structure from similarity 
relationships.
    In summary, Mr. Chairman, the need for the capabilities of the Next 
Generation Internet is apparent to us who work in biomedicine. Its 
increased bandwidth and expected Quality of Service provision will 
allow the transmission of complex images in real time for diagnostic 
purposes, which is not currently possible. Using the Internet to 
coordinate the gathering and dissemination of information required for 
conducting extensive multi-site clinical trials is yet another example 
of a medical application beyond the present capability of the network. 
Other applications require a guaranteed level of service (for example 
no data loss, or assured privacy protection) that today's Internet 
cannot provide. There are many others that I have not mentioned, such 
as home healthcare, continuing medical education, public understanding 
of science, or even reduction of errors in medical practice. Actually, 
the very best applications have not yet been developed! Each week 
brings even better and more imaginative biomedical uses of networks. 
I'm confident the final result will be a major improvement in American 
health care.

    Senator Frist. Thank you, Dr. Lindberg.
    I thank all three of you for your outstanding testimony. 
And I have had the opportunity to read your testimony.
    As an aside, it is interesting every time the students come 
in you realize, as we are listening to this testimony and you 
see those students over there, the world that this work has 
opened up, whether it is addressing the fundamental 
infrastructure or the applications or the digital divide, the 
implications that it has for their future. So as we sit up 
here, watching them come in and out, it makes you realize how 
important both the work that you do is and our investment and 
our addressing the problems that are introduced by the advances 
that are made. It is fascinating.
    Dr. Lindberg, it is fascinating, in your opening statement, 
when we did that in 1996, in terms of access, World Wide Web, 
Internet-based information, the figure that you cited, not just 
the growth in access of information, but the public's access of 
one out of three of those searches of MEDLINE being the public. 
At the time, I would not have predicted it. We would have 
predicted some. And I remember even that day that we talked a 
little bit about when you let this information out, what 
happens.
    How do you reflect upon that? Now we have 3-4 years of 
experience with it. Before that time, probably one in 20 
searches, I am guessing, would have been by a non-medical 
person and now it is one in three.
    Dr. Lindberg. I think it would probably be less than 1 
percent.
    Senator Frist. And then today, what are the implications 
today? Obviously people have that. We talk about costs. We talk 
about quality. We talk about empowering consumers. We talk 
about intelligent consumers. We talk about preventive medicine. 
Is there any way you can--it is all of those things--but where 
you can see all of those queries coming in? How would you 
summarize it?
    Dr. Lindberg. Well, I think there is a new factor loose in 
health care, and that is the activated patient, long ignored. 
We hear frequently now of patients who will consult the medical 
literature even before they consult their physician. And rather 
than shy away from this, I welcome it. I think this is probably 
an informed patient who is increasing his or her likelihood of 
getting a good benefit when they do see the doctor or they go 
to the hospital.
    This clinical trials database that we just announced 
yesterday is a wonderful thing. It means that anyone who is not 
satisfied with the treatment they are offered--I mean who can 
be satisfied if they tell you there is no treatment and you are 
going to die? Anyone with any sense is either going to find 
another doctor or another information source or something. That 
is not hard to imagine--you can now at least find out what the 
Federal Government, through NIH, is paying for. And in years to 
come, we will add those trials conducted by the drug houses and 
perhaps even internationally.
    So I think that this is an era in which we just have to 
acknowledge that the patients of today are very different from 
40 years ago. They are better educated. They are more 
sophisticated. They are more ready to be partners in the 
decisions about their own care and in fact their own steps to 
remain healthy. I think it is a wonderful development.
    Senator Frist. It is impressive, in 3 and a half years, the 
changes that are there.
    I want to turn to Senator Rockefeller. But, Dr. Lane, let 
me just mention--and I appreciate the directness of your 
testimony and the comments that were made and the suggestions--
I will have to state that there is some confusion to me, 
reading through the testimony and looking at the numbers, how 
funding for the interagency program is structured. Which means 
that I need to spend more time, and maybe our staffs can get 
together and spend more time in the near future, to better 
understand the overall funding structure.
    And it would also be helpful to me if your office could 
prepare a more detailed list of the funding components within 
each of the participating agencies, including the amount of 
funding requested for each of the individual programs. And we 
do not need to go through it now, but that would be very 
helpful. It would help me understand and share with other 
members on this subcommittee.
    Dr. Lane. We will provide all that, Mr. Chairman.*
---------------------------------------------------------------------------
    * Information was not available at press time.
---------------------------------------------------------------------------
    Senator Frist. Let me ask just one question. If the 
President's Information Technology Advisory Committee called 
for a doubling of Federal information technology R&D over a 5-
year period and an expansion of the interagency research 
programs to achieve a more balanced portfolio--the President's 
2001 budget requests a 35-percent increase over the preceding 
year, which, if maintained, would mean a doubling in just over 
2 years--could you explain that observation, this rapid 
doubling, at least, or rapid curve, shooting up this year, 
which would be more than a doubling versus what the initial 
recommendation was?
    Dr. Lane. Mr. Chairman, first, the Information Technology 
Advisory Committee did a very careful job of giving their best 
sense of how these increased investments ought to go. But I 
also think they would agree that their anticipation was that we 
would then bring the agencies together and look in some more 
detail of what we are doing and what are reasonable numbers on 
a year-by-year basis. And that has been done.
    And the President's budget request last year--and we only 
got two-thirds of that through the appropriation process, so we 
started a little behind where we thought we ought to be, and so 
this year, we catch up a bit in that regard--but puts us pretty 
well on the doubling track, I think. But the thing I would want 
to emphasize is that it also reflects our deeper analysis of 
what is possible and how fast we need to make progress in these 
important areas and the very high priority the President and 
Vice President put on this area.
    Senator Frist. On the balanced portfolio, could you give 
examples? Or how is it more balanced now than it has been in 
the past?
    Dr. Lane. I think part of the confusion that probably many 
have with the different names that are associated with the 
programs comes from the fact that in the original High-
Performance Computing and Communication Act, there was an 
important networking component that was called large-scale 
networking. And we have used that same name to try to capture 
the program as it evolves. And all that has really happened is 
that the technology has moved so rapidly and the opportunities 
and the challenges changed so rapidly that, understandably, 
there are new components of the program that come along.
    So, in 1998, the NGI effort put an emphasis on more 
attention to networking research, but also test beds, because 
the need was there and the opportunity was there. And then, 
finally, in the President's fiscal year 2001 budget, as a 
result of the PITAC report--actually, fiscal year 2000 and then 
continuing this year--is this thing called scalable information 
infrastructure. It is just an evolutionary track toward a 
higher level of complexity, higher bandwidth, an increasing 
need to address some of these fundamental problems such as my 
colleagues have spoken to.
    So we believe it is a unified program. And we also 
emphasize that networking should not stand on its own. It must 
couple to high-end computing. It must couple to social 
behavior, and economic issues. It must couple to other aspects 
of the President's overall program. Because these interrelate 
and they depend on one another. And we look forward to working 
with you to better articulate how all this fits together.
    Senator Frist. Thank you very much.
    Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I had one of 
the worst scheduling days of my life and I totally apologize to 
you and particularly to the panel and the panel that succeeds 
it.
    I had a meeting recently in which a very small company came 
in and described how they were going to provide an 
infrastructure for a high-speed network, which would cover half 
the country. I had known them as a very, very small company, 
but they had plans to become a big company very quickly.
    I was trying to think, on the one hand, you have the 
ability of a company to make those plans. Now, whether they can 
raise the money for it and do it, that's another thing--but if 
they raise the money for it, they will do it. And it is all 
laid out. They have figured out how they can do it and beat 
others to market in some very smart ways. It was a very 
fascinating hour or so.
    So, you have that sort of infrastructure at the very large 
level that is privately initiated. If they can get across 
LATA--and they can--they can build this new network.
    My daughter is on the board of trustees at Spelman. Spelman 
College, as you know, is a terrific African-American women's 
college. The college has decided, on a small scale, that the 
best way for African-American women to advance in this society 
is to excel in the fields of math and science.
    So they are making an institutional commitment to change 
their curricula to reflect that. Which, I have to assume, has 
wrenching effects on all kinds of faculty and students who are 
there, majoring in teaching or other subjects that they think 
are really important and, to some extent, or altogether, may be 
getting pushed aside for a new institutional thrust. That is 
the broad idea, which has consequences on all of us.
    How does this bill, which I proudly cosponsored with 
Senator Frist and others, address the information 
infrastructure for the next generation? In a way, a new 
infrastructure is difficult to build, as my two examples 
illustrate. Can we control this new infrastructure since the 
ground rules for some of the relevant technologies were laid 
out in the Telecommunications Deregulation Act?
    Dr. Lane, would you comment first?
    Dr. Lane. I will make a quick comment, but I certainly want 
you to have a chance to hear from my colleagues on this issue. 
I will say a couple of things, Senator. First of all, it is 
great to see you today, and I really appreciate the opportunity 
to be here.
    Many of the quite extraordinary advances that are going on, 
what companies are doing, what regions are doing, institutions 
are doing, are stunning, I think, by any measure. Every time I 
hear one of these stories, I am impressed with the vision and 
the commitment. The recognition that information technology is 
changing everything about how we live and how we learn and how 
we do business and how we ensure the public's health and well-
being.
    But when you look sort of one level down and start to ask 
questions of a company or an institution about what it is they 
plan to do and what kind of barriers do they see they face--it 
may be there are cost barriers or there are other kinds of 
barriers--then all of these issues that have come up in the 
PITAC report and in some of the testimony here start to come 
forward.
    There are things like privacy and security--and of course 
we know about security problems from our recent experiences in 
this country--and speed and end-to-end high bandwidth. We have 
very impressive progress being made all over the country on the 
speed at which we are able to communicate across the backbone, 
but we cannot deliver, for the most part, anything like that 
same speed to the room, to the desk, whether it is in the 
classroom or in our home or anyplace else.
    There are some fundamental questions about, do you go to an 
all-optical system, and how do you design the optical switches 
that you will need? Because, right now, we waste a lot of our 
time converting from optics, photons, to electrons, and we have 
to get past that. And there are many, many, many technological 
barriers in the way.
    These are very fundamental questions. And they are the 
kinds of things that industry really cannot afford to address. 
They do not have time. They have got to get out there and 
compete in an increasingly competitive market. And they are 
very dependent on the Federal Government to make those 
investments, those long-range investments, in those fundamental 
challenging problems that we need answers to so that the next 
next generation of computation and communication will be ours 
to enjoy.
    Senator Rockefeller. Can I expand the question, Dr. 
Colwell, so you can answer it, too? Because, in a way, it is 
philosophical. Exactly as you say, the network will be all 
optical. They are going to do the whole thing. It sounds 
improbable maybe, but it was very impressive.
    And then, this new book by Michael Lewis, they use the word 
impose--I think Jim Clark used the word--we are going to impose 
technology on the American people. I think that was exactly the 
quote. We are going to impose the technology on the American 
people. So the next question is, how do we account for social 
responsibility when we ``impose'' this new technology?
    Now, into our Next Generation Internet bill is built 10 
percent for ESPCoR, and that does certain things. But social 
responsibility is a very large bandwidth in this country. And 
do we face up to any of that?
    Dr. Colwell. Well, I am very pleased with the connections 
program that the NSF has run. And that is to make sure that the 
connections to rural areas and to the underserved are made. And 
we pledged--and this is a program Neal Lane started--I am very 
happy to say that we had pledged to make 100 of these awards 
and we were able to make 170. And 40 of these were to ESPCoR 
institutions.
    I would like to comment about your earlier statement, 
because I think it is very important. We make the connections 
across academia and all the states, but we can say that the 
tracks are laid and the companies are providing the high-speed 
connectivity, but we have a lot of research yet to do. For 
example, we are creating a billion-node Internet, but we really 
cannot simulate a million-node network. And so we have some 
fundamental breakthroughs that we have to make in many 
disciplines, not just in computer science, but in mathematics, 
physics, chemistry, social and behavioral sciences, in order to 
ensure a stable and a well-connected Internet.
    And so the issues that Neal Lane raised--end-to-end user 
connectivity, scalability, but also middleware software--are 
important. We do not have an operating system for the Internet. 
And so this is important for us to develop. Companies can make 
the connections and provide the high speed, but there is an 
awful lot to be done before we are there.
    Dr. Lane. May I just add a comment to that?
    Senator Rockefeller. Please.
    Dr. Lane. I shudder when you quote someone as saying we are 
going to impose technology on the American people, because I 
worry that the American people feel that, indeed, that does 
happen to them all the time. And I want to make clear that the 
President and the Vice President, whenever they talk about 
technology, and information technology in particular, emphasize 
to me or in public comments the importance of sitting down with 
the American people and considering what they want and what 
their values are.
    That if we just plow forward with imposing technology on 
the people, first of all, we may get pushed back. Second, we 
are likely to miss the very things that the American people 
need and want. And, the third thing, it is just wrong, from my 
point of view.
    So I want to emphasize that, in the President's budget 
request and coming out of PITAC's recommendations, we have a 
strong emphasis on social and economic issues associated with 
information technology, doing whatever it takes to support 
research to help us understand what are the implications of 
these important technologies on people's lives. And NSF plays a 
very important role in that activity.
    That is a new piece of technology. And you will also see it 
in the President's nano-technology initiative. There will be 
attention given to social, behavioral, economic, work force 
aspects. And I think we should do it for every kind of 
technology initiative that we have.
    Somebody ought to ask the question, as you did, Senator, to 
what extent does this address the values of the American 
people? And we think that is a very important question, and we 
will respond to it.
    Senator Rockefeller. Dr. Lane, I think you have answered 
the question in exactly the right way. But it struck me that 
the President could not help holding out what is possible in 
science and none of us can help it. When the President was 
giving his state of the Union, he was talking about the little, 
tiny machines which could clean out your arteries and do all 
kinds of things. That is what is so fascinating--the 
possibilities.
    Those possibilities of science are what this bill address--
creating the next generation internet, making sure that we are 
keeping up with others. I am not sure that we are keeping up, 
and I want to ask about that: do we have time, between this 
generation of the Internet and the next generation, to do what 
has to be done?
    But philosophically, at the bottom, the people--and it is 
not just people in Silicon Valley, which that book was written 
about, but people everywhere--do not have time, because of 
competition. I mean theirs is so much more brutal a 
competition. By the way, I have told the airlines they have got 
to stop telling us that every nickel makes a difference, 
because the new economies could wipe them out. Now, every penny 
makes a difference, and that is all they have time to think 
about.
    So the question is what are the effects of new technologies 
on all of us, as the American people. We can say we have got to 
distribute resources in a balanced manner so we will do ESPCoR. 
We will make sure the next generation internet gets into this 
or that community, and we will hope there are more Spelman 
Colleges.
    But, in the end, we are not in control. It seems to me--and 
I want to put this as a question, not as a statement--that the 
forces of innovation are always going to overrun, the forces of 
the corrections necessary to make the innovation broadly or 
fairly applicable. As a U.S. Senator, I have to worry about 
that fair application, coming from the state that I do. So I 
wonder if you could just respond to this idea--the out-of-scale 
proportion of the power of innovation versus the power of the 
rest of us to try to equal things out.
    Dr. Lane. Senator, we believe in a free market system in 
America, and it has always had associated with it these kinds 
of tensions, I guess, and conflicts. And often we have serious 
problems associated with that.
    I think that is what we call leadership. If you look at the 
President's speech to the Cal Tech faculty, when he went out 
and sort of rolled out the science and technology initiative--
so there the President is speaking to the scientists, the 
researchers, and he is emphasizing how important it is to pay 
attention to American values--not just in thinking about what 
kind of research to do or how to feel about the new 
technologies, but in the whole process of doing it and to 
encourage further engagement--I mean real dialog, if you like, 
with the American people.
    The second thing I would say is that we have a window of 
time--I do not know how long it is--in information technology 
where it is still evolving, where we are still figuring out 
where it is going and how to use it. It is getting cheaper for 
its capability, in per bit, or per bit per second or per 
computation. There is a time here when we could, if we give 
proper attention to the issues you are raising, we could use 
this technology, we can ensure that this technology really does 
start to close the gap. We call it the digital gap; it is more 
complicated than a digital divide or a gap, but that is the 
idea.
    And I think if we look back at this time and discover that 
we did not pay attention to what might just be an enormous 
opportunity with this technology to address some of these 
issues that we have been grappling with for decade upon decade, 
we will have not done our job. So I appreciate the emphasis you 
place on this. And yes, I do agree and want you to continue to 
worry about these issues.
    Senator Rockefeller. Dr. Colwell.
    Dr. Colwell. I would like to say it also provides a very 
strong argument for continuing the investment to ensure 
connectivity. We can, through virtual centers, connect 
scientists in every part of the country. We can connect 
citizens to the opportunities that would not otherwise be 
possible.
    And I think we have seen this through, for example, the 
partnerships that we have provided in advanced computing. This 
reaches out to every part of the country, and so it does not 
leave anybody out. And that is the power of it. And that is why 
we really have to keep the investment going. And the timing is 
critical.
    Senator Rockefeller. Well, my final question would be, do 
we do enough in this bill? Are there things that you think that 
we are deficient on?
    Dr. Colwell. Well, I would not say deficient, but I do 
think that there are some things that we do need to pay 
attention to. And that is scalability. It is a key 
recommendation from PITAC--modelling and simulation of network 
behavior, the issue of the billion-node network, but we are not 
even able to simulate a million-node network. So there are some 
fundamental breakthroughs that are needed.
    And I think the applications across all of science and 
engineering really need to be a priority. But, Neal, I think 
you wanted to say something else.
    Dr. Lane. I would add, just to repeat a comment I made 
earlier, that the networking part of the information 
infrastructure program for the Federal Government is now built 
into a larger information technology R&D program. It is well-
coordinated. It connects where it makes sense to connect. It is 
coordinated among agencies where you want agencies to work 
together. And so it is a little bit artificial to separate the 
networking part, Internet, away from high-performance 
computing, high-end computing, social, behavioral, ethical, 
economic considerations.
    So we think this is a great first start. There are some 
small issues having to do with--I think NOAA is not currently 
mentioned in the bill, and they are a very important agency 
here, and there are a few issues like that--but we think it is 
an important first start. We would like to see the whole 
program authorized. We would like to see the whole Federal 
effort in information technology R&D authorized and the 
appropriate connections made between the different parts.
    Senator Rockefeller. And, Mr. Chairman, before I continue 
my outrageous behavior and walk out on you entirely, let me 
emphasize again that I understand that we could spend all of 
our time trying to make each and every person totally equal in 
access by March 29th, and it will not happen. Innovation is 
sacred unto its own core value and to the American ethos, as 
you indicated, Dr. Lane.
    And we can also hold ourselves up by putting up barriers. 
And I am not talking about sort of Internet taxation or some of 
the more conventional types of things, but perhaps sort of the 
social reaction against innovation, which could be very 
damaging to all of us for the very hurts that lie inside of me 
potentially as I look at states like my own. And that is why I 
am on the bill.
    I have only a desire to see this drive forward with the 
assumption that all of you and us working together, and the 
American people, are going to have to try very, very hard to 
make the whole thing as fair as possible. But an alternative 
cannot be to say, oh, well, we have got to slow down this until 
we can catch up on this. And I understand that.
    Dr. Lane. Thank you, Senator. If I might just add one 
thing. I think we have to do things in parallel with our R&D 
effort. And the President's digital divide program that he has 
brought forward with the fiscal year 2001 budget lays out a 
number of other things that we can do in addition to R&D to 
address shorter-term needs, tax advantages, tax incentives, for 
companies to work with the community. It is all in the spirit 
of partnership.
    Senator Rockefeller. And I understand that. But it is like 
every time I hear one of those on my side of the aisle talking 
about 100,000 new teachers, when I know perfectly well we need 
2.5 million. I feel good, but I also know that it sounds good 
to say 100,000 new teachers, but you are not really addressing 
the problem.
    Dr. Lane. We can always do more, sir.
    Senator Rockefeller. And we do not have to agree on that 
publicly.
    Senator Frist. I agree.
    [Laughter.]
    Senator Frist. Let me ask a couple of questions, and then 
we will move on to our second panel.
    Senator Rockefeller, before you leave, under my tab, 
following Dr. Lindberg's testimony, there are a series of 
projects in here. It says projects funded by the National 
Library of Medicine, January 2000. That is always very 
dangerous to present this in a complete document. And Alabama 
looks good and Arizona looks good. Arkansas looks good. 
California looks good, Connecticut, the District of Columbia.
    The only two states that do not have these grants in there, 
Dr. Lindberg, are West Virginia and Tennessee. Remember that in 
your next funding from the National Library of Medicine. 
Because Tennessee is not in there, nor is West Virginia. We 
have got to be in there.
    Senator Rockefeller. And to get to the Tri-cities of 
Tennessee from West Virginia is only about an hour and a half 
drive by car. So this is a ferocious task that Dr. Lindberg has 
in front of him.
    Senator Frist. We will put the charge out there.
    Dr. Lindberg. Well, I was going to comment that when I last 
saw Senator Rockefeller, we were putting our Smartcards into a 
reader connected to the computer in West Virginia. And my 
pseudo practitioner card let me, combined with his pseudo 
patient card, let me read his medical record and find out he 
had been immunized against tetanus or something like that. And 
I think West Virginia is a pioneer in this. I'm glad NLM 
supported this network.
    The use of Smartcard technology, very extensive in Europe, 
very minor in the U.S., I think is an example of the counter-
argument that we have not even begun to do good coordination of 
the information technology and the health care technology. I 
think that is a very good experiment. That is what lets you 
certify you are the patient and you are the doctor and the 
access is authorized.
    Senator Frist. Extending that a little bit, you mentioned 
in your testimony, on telemedicine itself, we are not quite 
there. And it is very useful to hear about the progress that 
has been made, but also put out there what it is going to take 
to capture that next step in terms of telemedicine. Is there 
going to be an incremental jump, do you think, in the next 
couple of years in terms of telemedicine, the cost of that?
    Dr. Lindberg. I do. I think that one of the very important 
areas is what is sometimes now called home health care. And 
this fits very well with the development of wearable computers 
and computers that can continue to take pulse and blood 
pressure and temperature and so forth. So that, to a great 
extent, you can really do a physical examination at home right 
now.
    Senator Frist. That is tremendously exciting.
    Dr. Lindberg. Yes, Senator.
    Senator Frist. Dr. Colwell, let me jump real quickly, just 
because the second panel, I know we should move to the second 
panel here shortly. Both university presidents have submitted 
testimonies basically saying that the NSF has a bias toward the 
Internet II universities. What is your agency doing to ensure 
that all of the hundreds of universities around the country are 
not left behind just because they are not a part of the 
Internet II consortium?
    Dr. Colwell. I mentioned the connectivity program. That is 
specifically to augment grants for high-performance network 
connections, to defray the costs, for rural institutions and 
for the non-research institutions. And so, through this 
program, we have made a substantial number of awards. And 40 of 
these have gone specifically to the ESPCoR institutions in 
ESPCoR states.
    In our latest funding request that has gone out, we are 
making a concerted effort to ensure that we do connect, go the 
last mile to connect every one of the institutions throughout 
the country. We are making a concerted effort. This is part of 
our specific task for the next year.
    Senator Frist. Thank you. We will keep the record open for 
further questions. Dr. Lane, in terms of the categories and 
line items, I very much want our staffs to get together so it 
will be clear for me.
    Dr. Lane. I look forward to it.
    Senator Frist. Let me thank all three of you. There are 
many different questions, many different topics. It is always 
frustrating when there are so many topics that we could talk 
about, but we appreciate your taking time and investing it with 
us today. Thank you.
    We will go straight to the second panel at this juncture. I 
would ask that they come forward.
    Dr. Thomas Carter Meredith, Chancellor of the University of 
Alabama System; Dr. Bill Stacy, Chancellor of the University of 
Tennessee Chattanooga; and Mr. Stephen Tolbert, President and 
CEO of Global Systems & Strategies.
    As I mentioned in my opening statement, the focus will 
shift, as we look at some of the end users, the implications of 
our current policy today. Let us go in that order. I will begin 
with Dr. Meredith, followed by Dr. Stacy and then Mr. Tolbert.

  STATEMENT OF THOMAS CARTER MEREDITH, ED.D., CHANCELLOR, THE 
                  UNIVERSITY OF ALABAMA SYSTEM

    Dr. Meredith. Thank you, Senator Frist. And thank you for 
the opportunity to be here today to talk about the critical 
importance of an advanced telecommunications infrastructure for 
higher education, and especially to research universities.
    I have a longstanding commitment to the deployment and use 
of information technology in higher education, as evidenced 
here in my 9 years as a campus president and now in my current 
role as the Chancellor of a system of three doctoral research 
institutions, the University of Alabama at Tuscaloosa, the 
University of Alabama at Birmingham, and the University of 
Alabama at Huntsville. We have combined our own resources and 
NSF grants to develop joint access to Internet II through the 
creation of the Gulf Central Gigapop. ``Joint'' is the key 
word, as our three very competitive universities are 
increasingly holding hands now on major projects to assist our 
state and our Nation.
    I am here on behalf of the states participating in ESPCoR, 
the Experimental Program to Stimulate Competitive Research. A 
number of members of this subcommittee represent ESPCoR states, 
and we appreciate their past and continuing support for our 
efforts. As you know, ESPCoR focuses on the 19 states and 
Puerto Rico, which historically have received the least amount 
of Federal R&D funding from the National Science Foundation, 
the National Institutes of Health, and other Federal programs.
    ESPCoR members represent approximately 16 percent of the 
U.S. population, and receive only about 8 percent of the NSF 
research budget, and about 5 percent from NIH. ESPCoR states 
have relatively large rural populations, and many have research 
strengths based in agriculture and natural resources, which 
were the traditional economic keystones of their states. A 
number have special under-represented groups to assist, as 
well.
    And while agriculture and natural resources remain 
significant parts of our economy, we are experiencing business 
and industrial expansions in other areas. Our institutions are 
attracting faculty who are conducting research in disciplines 
requiring access to global resources, access that will depend 
on participation in the Next Generation Internet.
    We know we are educating our students for a new economy 
based more on information, knowledge and business skills than 
in the past. And we know that our states' economies and our 
citizens' and students' standard of living are increasingly 
tied to a global economy.
    There are nationally and internationally recognized 
research programs emerging in the ESPCoR states, including 
several NSF engineering research centers. And in my own state, 
the University of Alabama Medical Center in Birmingham is 
recognized as one of the finest medical centers in the country.
    Access to the Internet and, specifically, to the Next 
Generation Internet, is crucial to these programs and to the 
overall economic and educational development in the ESPCoR 
states. Let me zero in on the issue at hand: the Next 
Generation Internet authorization legislation.
    Thanks to efforts in this subcommittee, and through the 
help of George Strong, the ESPCoR office, and others in NSF, 
ESPCoR institutions have been able to participate in the Next 
Generation Internet despite early indications that it might be 
limited to only 50 or 100 institutions. We faced the real 
possibility of being shut out of perhaps the major 
infrastructure initiative of this decade. And it goes without 
saying that this would have severely crippled our research 
capabilities.
    However, we did obtain at least one high-speed connection 
for each ESPCoR state. And we did have representatives from our 
states included on several committees and panels. And we are 
included in several NSF initiatives. However, the job is not 
finished. ESPCoR states continue to struggle with connection 
costs and with the development of scientific applications of 
the advanced networking systems. I believe we have the people; 
our need is infrastructure and support.
    The rural infrastructure and the minority and small college 
Internet access initiatives are also of particular importance 
to the ESPCoR states, where cost of Internet access remains a 
significant barrier, as you mentioned earlier.
    Let me close with two points. One is the importance of 
providing an assurance that the ESPCoR states will continue to 
be included in the Next Generation Internet program. This is 
essential to our being competitive for funding from NSF and 
other agencies. We may have a brilliant faculty member with a 
truly outstanding proposal. But if we do not have the 
connectivity and the infrastructure, that faculty member is 
disadvantaged in grant competition and therefore research 
capability.
    Second, we ask you to work with us. I have had experience 
in three ESPCoR states now--Mississippi, Kentucky, and Alabama. 
All three have real research success stories, developed in the 
settings where we teach, work, conduct our research, and 
interact with our communities and states. Help us with 
resources. Help us by including us in the relevant committees, 
panels and boards. Help us in finding collaborations. We can 
make important contributions to the development of Internet 
technology, infrastructure and applications.
    There is a real danger of a higher education digital 
divide, that has been discussed today, that could leave 
institutions in many states, particularly rural states, out of 
the Next Generation Internet. The importance of this issue to 
research, student education, business, and economic development 
is underscored by its prominence at the National Governors 
conference which just concluded here. During that conference, 
Alabama Governor Don Siegleman announced plans to call together 
leaders from across our state to address how Alabama can meet 
the technology challenges of the 21st century. There is a 
commitment there.
    I believe the bill before you puts us on the right track to 
prevent a digital divide in higher education. And I appreciate 
your efforts, and I thank you for allowing me to be here today. 
Thank you.
    Senator Frist. Thank you, Dr. Meredith.
    Dr. Stacy.

          STATEMENT OF BILL STACY, PH.D., CHANCELLOR, 
           THE UNIVERSITY OF TENNESSEE AT CHATTANOOGA

    Dr. Stacy. Thank you, Senator Frist.
    I appreciate very much the commitment to the policy 
considerations that you and your subcommittee and your 
colleagues in the U.S. Senate pay to science, to technology and 
to space. The wise investments of you and your colleagues and 
the U.S. Senate, particularly your 1998 bill, have propelled 
efforts to create and to claim the incredible assets of 
technology and science that extend the reach and the power of 
the human mind. Your investments to motivate America's 
brightest intellects to pursue the potential of the Next 
Generation Internet and large-scale networking programs serve 
this Nation's highest ambitions and, indeed, its highest 
obligations.
    NGI, Internet2, large-scale networking programs, such as 
Abilene and the very High Backbone Net services, push back the 
frontiers of knowledge, and offer computational sophistication 
that many of us thought unbelievable just decades ago. Such 
intellectual tools provide hope for medical research, the 
Nation's security, for environmental preservation, for 
business/industrial modelling. In short, the potential of the 
NGI extends and builds on what causes any of us to marvel at 
what is reported at any scientific journal this month and, 
indeed, in every daily newspaper this week.
    Federal funding of the NGI encourages and enables our best 
brains, whether in universities, research corporations or 
foundations, to pursue those discoveries whose applications 
seem destined to outpace even today's e-medicine, e-commerce, 
e-data management, I suppose even e-politics, whatever those 
e's are that are revolutionizing the intellectual, economic and 
social lives of Americans.
    My brief comments accompany a better statement which I 
prepared and have delivered to your committee. And it talks of 
the challenges of a metropolitan university who claims as its 
only reason for being its response to the areas, clusters, that 
it serves. Joining me for an indication of the excitement of 
research at the University of Tennessee, is President Wade 
Gilley. He has just joined us and has signalled a dramatic 
recommitment to research for the land grant flagship university 
at Knoxville. Dr. Duane McKay has recently accepted appointment 
as the Vice President for Research and Technology of our 
University System.
    My remarks focus on the value of the NGI and the request 
that this committee consider broadening access. The country 
cannot allow ``haves and have-nots.'' Maybe we are beyond that, 
but probably we ought not allow ``have and have-mores'' either. 
I think Senator Rockefeller was trying to get a handle on that 
in his comments a moment ago. In university parlance, we talk 
about breadth and depth. And I think it is time perhaps that we 
could broaden access to the sophistication of combinatorics and 
other possibilities this Internet will allow us.
    Fast Internet is the key to so many things. It is surely 
our national goal. With limited resources as you began, it was 
proper I think to focus it. But now, as you see developing 
value, I just think it is enormous and maybe we could share 
some of the access and entry points.
    A major disconnect occurs with faculty, with universities, 
with businesses, with communities, where that territorial 
absence of that cluster of sophistication exists. There are 
whole regions omitted from the high-speed networks. You know 
that if you put some sort of a map of the Internet II over 
Internet I, it looks remarkably similar.
    Sure, it is Boston and it is New York to Philadelphia, and 
it is Pittsburgh and it is Chicago and it is Atlanta, and it is 
a little in St. Louis, and it is Florida and all the national 
labs, and it is Boulder and it is the West Coast, and you see 
it in, San Diego, Los Angeles, San Francisco, Seattle. And then 
you look at lots of areas of this country where that cluster of 
sophisticated technology is absent. So I would say to you that, 
as part of a system at the University of Tennessee, our campus 
I think will not be a part of the developing of the 
sophisticated protocols that many of the Carnegie I research 
doctoral universities will provide.
    Nonetheless, the absence of access for any faculty, for any 
business, in a community where there is a great deal of 
research potential, for the Tennessee Valley Authority, looking 
at electric power, at water, at resources, great insurance 
corporations headquartered in our area, logistics, looking at 
water--there are many areas where access to the computational 
potential that would be involved would make a tremendous 
difference.
    Our sister institution at Knoxville, the flagship 
university, in its Carnegie I status, has been able to make 
that connection to the performance network. And the 
connectivity has been able then to generate other access and 
other grant opportunities, a great deal of sophisticated 
research, both in this country and in cooperation around the 
world.
    You have seen a number of those things. It is wonderful to 
see the early harvest Internet application initiative, 
providing that privacy, authentication, authorization, to 
support medical applications. And you have seen the University 
of Tennessee College of Veterinary Medicine, having the live 
animal clinic caseload, sharing with colleges of veterinary 
medicine throughout the Southeast.
    You have seen the Radiology Department of the University of 
Tennessee's Health Care in Memphis involved in a program to 
monitor and direct ultrasound studies throughout the region. 
And so there are many opportunities in telemedicine, medical 
research, distance education, lots of ideas. Indeed, in the 
Architecture School, using some on-demand live and archived 
digital video, to help us in the teaching and the research of 
architecture.
    To just summarize, I think my comments are these three. The 
country and the world are well-served by that wise investment 
begun by this country over the years. And it is highlighted by 
your 1998 Act. And what you are now considering is pursuing the 
assets of this next generation of Internet II. Higher education 
joins you in making this a very high priority in the 
intellectual lives of the Nation's campuses throughout the 
country.
    While the work of discovery and protocol for the Next 
Generation Internet remains critical to understanding, 
applications are already beginning. America's genius of the 
free market has entrepreneurs seeking to rush the applications 
to Americans even before the ink is dry on the last discovery.
    And third, the request that I bring to you is for broadened 
access. We need to be sure that the NGI is accessible to any 
faculty member, any person bright enough, competent enough to 
contribute to its development or its application. Pricing now 
allows only about 25 of the 700 universities in the South to be 
members--25 of 700. Across the country, you heard 150, maybe 
170, of nearly 4,000 colleges have that connection.
    The strategy perhaps could allow campuses or systems some 
way to distribute access through the flagship campus. Current 
membership fees currently disenfranchise campuses that could 
compete on their own merit for applied research and development 
in a secondary applications.
    The reality of this Republic is that its best resource is 
always its people. The genius of America lives and works in 
every state and region of this country. We are a mobile 
population, to be sure, but we cannot all live in Silicon 
Valley. We need to have the ability to make intellectual 
opportunities and capacity more readily available to more 
people in more places. The competitive nature of freedom to 
think, to create, to apply inevitably works for the advantage 
of all Americans.
    Thank you very much for what you are doing for this 
country.
    [The prepared statement of Dr. Stacy follows:]

         Prepared Statement of Bill Stacy, Ph.D., Chancellor, 
               The University of Tennessee at Chattanooga

    Since its founding in 1886, The University of Tennessee at 
Chattanooga has been dedicated to providing quality education to a 
diverse population of over 8,600 students, focusing on the development 
of excellence in undergraduate education and in selected areas of 
graduate study. We increasingly strive to provide the best public 
undergraduate education in Tennessee. Our goal is to assist the 
economic development and to improve the quality of life for Tennessee 
and the surrounding region through expansion of its intellectual 
capital.
    The University of Tennessee at Chattanooga's professional and 
graduate programs are better able to serve our students through the 
unique assets of the metropolitan, living laboratory of Chattanooga and 
surrounding metropolitan clusters. The University of Tennessee at 
Chattanooga has developed into an excellent Master's Comprehensive I 
Carnegie institution and is now evolving into distinction as a 
comprehensive public metropolitan university. The campus ``accepts its 
relationships to the surrounding metropolitan region as its essential 
rationale, its reason for being,'' in the words of Daniel Johnson and 
David Bell in their treatise on this emerging model of higher education 
institutions.
    The purpose of my testimony today is to relate the experiences of 
The University of Tennessee at Chattanooga in the Next Generation 
Internet environment, and the challenges we face to achieve full 
participation in that environment. We are completely aware of the 
impact high performance networking will have on how we conduct our 
instructional and research activities in the 21st century, and that 
some of those activities will undergo profound change. As in the case 
of many non-Research I institutions, however, The University of 
Tennessee at Chattanooga does not currently have equitable access to 
NGI funding, and to the national and regional high performance 
networking infrastructure, and, thus, is not benefiting from the rich 
opportunities for collaboration, innovative instructional delivery and 
resource sharing that the NGI allows. While one goal of the NGI and 
Internet2 initiatives is to extend the fruits of advanced networking to 
all levels of educational use, this is far from being a reality today. 
As documented in the 1999 EDUCAUSE report Advanced Networking for All 
of Higher Education: ``It was noted during a meeting among affiliate 
members of the Internet2 project late in 1997 that consideration of how 
the products of these leading edge efforts might `diffuse' to the 
broader higher education community--and how to prepare for it-was 
lacking.''
    In the absence of a strategy for diffusion, institutions like The 
University of Tennessee at Chattanooga may have to be content with 
waiting for the eventual ``trickle-down,'' while most likely having to 
tolerate the consequences of being on the wrong side of the ``digital 
divide'' and the impact that will have on our status and 
competitiveness. Such a scenario is intolerable to us, and, thus, we 
are appealing for your consideration of the strategic funding and 
support that will be necessary to reduce inequities in the NGI 
environment before those inequities become unassailable.
    Simply stated, The University of Tennessee at Chattanooga does not 
have the financial resources necessary to support campus involvement in 
NGI/Internet2. In fact, of the more than 700 four-year and two-year 
universities and colleges in the nine-state Southeastern University 
Research Association network (including Alabama, Florida, Georgia, 
Kentucky, Louisiana, Mississippi, North Carolina, South Carolina, and 
Tennessee) who are eligible for participation in the NGI/Internet2, 
only 25 institutions are currently members. These numbers clearly show 
that campuses like The University of Tennessee at Chattanooga have 
overwhelmingly chosen not to participate. Since the benefits of 
participation are readily evident, one can assume that non-
participation results from prohibitive factors.
    For The University of Tennessee at Chattanooga to gain its own 
access to Internet2/Abilene, membership fees, connector fees, 
participant fees, and other charges are estimated at $277,000 for the 
first year with equal recurring charges in subsequent years. At a time 
of extremely tight state funding and with the commitment to hold 
student fees to levels that do not limit accessibility, such costs, 
even for crucial expenditures, are beyond the reach of most campuses.
    Significant problems face campuses that are unable to participate 
in the NGI/Internet2. As The University of Tennessee at Chattanooga 
recruits Ph.D.-qualified faculty members, access to networks such as 
NGI and Internet2 is becoming increasingly important. As doctoral 
candidates, these faculty members took advantage of the opportunities 
afforded them by these networks, and their research efforts depend on 
continued use. The inability of institutions like The University of 
Tennessee at Chattanooga to provide this high speed access will either 
deter candidates from joining their faculties or for those who accept 
positions, their research will be stifled. Similarly, faculty members 
whose research interests develop on campuses lacking network access may 
choose to leave for positions where access is available. In either 
case, the result is a loss of well-qualified faculty members for 
campuses who lack the resources to maintain network connections.
    The University of Tennessee at Chattanooga has increased its 
emphasis on research, especially applied research that addresses the 
issues and needs of a metropolitan region. Applied research has more 
relevance in the educational environment as students can readily see 
knowledge ``applied'' to solving real problems. Likewise, applied 
research increases the opportunities for partnerships between the 
campus and the community. Grant funding for NGI/Internet2 projects does 
not appear to favor applied research efforts.
    Curriculum development and the implementation of new degree 
programs, especially graduate and doctoral programs, is affected by the 
lack of access to NGI/Internet2. Student and faculty research will 
increasingly become dependent--in some fields the need is already 
absolute--on access to high speed network connections, and campuses 
that do not have connections will be unable to recruit faculty and 
students in those disciplines, effectively disabling the program 
development.
    The current fee structure is certainly a deterrent to participation 
for campuses such as The University of Tennessee at Chattanooga where, 
at present, perhaps no more than 10 faculty embers are engaged in 
research which could require use of high speed access to computational 
capabilities. This discounts the possibility of significant research 
accomplishments by small teams or individuals at regional institutions 
and instills a bias in the system toward large institutions where a 
greater number of users would result in high demand for bandwidth.
    Despite lack of involvement in high speed access projects, The 
University of Tennessee at Chattanooga has made great technological 
strides, especially in its on-campus fiber network. In terms of campus 
network infrastructure, The University of Tennessee at Chattanooga 
meets the standard requirement of delivering at least 100 Mbps to the 
desktop for on-campus traffic; this surpasses the capabilities of many 
NGI/Internet2 participating campuses.
    We may lack the external network connection to access NGI/
Internet2, but The University of Tennessee at Chattanooga does not lack 
vision and desire for participation. If The University of Tennessee at 
Chattanooga had access to the NGI/Internet2, the types of research 
activities which might be advanced include the design of mechanical 
prostheses, gait analysis, and computational physics, engineering, and 
chemistry. One faculty member in mathematics studies acoustic models 
and uses algorithms to detect objects in shallow water. Both the 
military and oil industry have expressed interest in this research, 
which is threatened if he does not gain high speed connection. A major 
insurance company with its headquarters in Chattanooga has worked with 
a business faculty member to explore new financial models for stock 
market predictions. Environmental modeling could include the tracking 
of pollution in the Tennessee River through partnerships in a water 
quality research center which includes the Tennessee Valley Authority, 
the Tennessee Aquarium, and the University of Tennessee at Chattanooga. 
Chattanooga has received international attention for its successful 
efforts in air and water pollution control and interest in 
environmental research is significant both on The University of 
Tennessee at Chattanooga campus and in the community.
    The direct public benefit from expanded access to the NGI for 
campuses like the University of Tennessee at Chattanooga would be the 
quicker response to identified needs through applied research results. 
In a recent address, U.S. Congressman Zach Wamp tied the development of 
additional graduate and doctoral programs at The University of 
Tennessee at Chattanooga with the economic vitality and future of 
Chattanooga and the surrounding area. Jim Kennedy, president of the 
Chattanooga Area Chamber of Commerce echoes Wamp's sentiment. 
``Chattanooga is a city that has reinvented itself,'' said Kennedy, 
``and we are in the midst of a strategic planning process--the success 
of which will hinge in large part on The University of Tennessee at 
Chattanooga's ability to deliver on applied research. Moreover, the 
change in technical training required of college graduates underscores 
the need for a well-wired university.''
    In comparison to The University of Tennessee at Chattanooga's 
experiences, I would like to illustrate what NGI participation and 
federal support can enable by describing the experiences of The 
University of Tennessee, the flagship institution of The University of 
Tennessee System in Knoxville. I hope my illustration will demonstrate 
what the NGI is enabling now in some reaches of higher education, and 
what the NGI will enable in future, once the challenges to full 
exploitation of NGI resources are overcome. Most significantly, I hope 
this illustration will serve to elucidate what benefits institutions 
like The University of Tennessee at Chattanooga are being deprived of 
in our current exclusion from the NGI.
    A charter member of Internet2, The University of Tennessee was the 
recipient in 1997 of an NSF High Performance Connections grant ($350k) 
to fund connection to the very High Performance Backbone Network 
Services (vBNS) national backbone. Since February 1999, UT has accessed 
the vBNS via the regional GigaPOP at The Georgia Institute of 
Technology in Atlanta with a 45Mbps. (DS-3) connection, and has also 
connected to the regional Southeastern Universities Research 
Association network, Southern Crossroads, via the GIT GigaPOP.
    Currently, both the Knoxville and Memphis University of Tennessee 
sites are preparing to migrate to Abilene, the Internet2 gigabit 
backbone. With the relaxation of the Abilene conditions-of-use in 1999, 
primary Abilene participants are now in a position to sponsor secondary 
participants, once meritorious use is demonstrated. Organizations, such 
as libraries, museums, K12, and institutions such as The University of 
Tennessee at Chattanooga, who would not otherwise enjoy Abilene access, 
are now presented with that opportunity. We anticipate this very 
encouraging development will foster more pervasive access to the NGI 
and should generate some very fruitful outcomes.
    In addition to High Performance Connections program funding, The 
University of Tennessee was jointly awarded $6.5m in 1998 by the NSF 
and the Ministry for Science and Technology of the Russian Federation 
for the MIRNet project--to provide Next Generation Internet services to 
collaborating US-Russian scientists and educators. The goals of the 
MIRNet project include assisting meritorious scientific collaborations 
requiring advanced, high performance internet services; connecting the 
Russian Next Generation Internet network to the US v BNS, and other 
next generation networks in the US and elsewhere; and, more broadly, 
encouraging and supporting productive cooperation between the US and 
Russian scientific communities.
    The University of Tennessee, therefore, by virtue of its Carnegie I 
status, and its demonstrated need for high performance network 
connectivity, has been able to successfully compete for federal agency 
support, and has thus been enabled to fully participate in the NGI 
efforts being pursued under the aegis of Internet2, a consortium of 
over 170 U.S. research institutions, government, and over 50 industry 
partners.
    With the enabling network infrastructure in place, The University 
of Tennessee has been positioned to pursue and secure additional 
funding, including awards from The Southeastern Universities Research 
Association for development and promotion of next generation video-
over-IP technologies; from The NSF Knowledge & Distributed Intelligence 
(KDI) program for development of interactive, online supercomputing 
training modules; and from The NSF for a Scalable Intracampus Research 
Grid (SInRG) project for the deployment of a research grid on The 
University of Tennessee campus at Knoxville, mirroring the technologies 
and the interdisciplinary research collaborations that are 
characteristic of the emerging national technology grid.
    Like many of the 100 research institutions awarded grants in the 
NSF High Performance Connections program, The University of Tennessee 
is faced with challenges to optimal use of its advanced networking 
capabilities. The challenges include last mile or local loop problems, 
i.e., the quality of the connection to the end user's desktop, and the 
need for campus networking upgrades, the characteristically high cost 
of high performance applications and the lack of funding for 
application development, the high demands on faculty time and lack of 
incentive to develop applications, the need for advanced middleware and 
resolution of network performance issues. Next generation 
internetworking in general, is still essentially a testbed environment, 
with network engineering issues, such as Quality-of-Service, yet to be 
resolved. Many of the technologies that can realize the benefits of 
broadband networks are emerging, and thus can suffer from poor 
interoperability, lack of standardization, and high cost.
    The dearth of traffic and applications taking advantage of the 
advanced research network infrastructure is a cause for concern 
nationally, which, not surprisingly, has resulted in a reevaluation of 
the merits of funding infrastructure. Universities, such as The 
University of Tennessee at Chattanooga, which have not already received 
infrastructure funding, therefore, will likely find making a case to do 
so difficult. The NSF Division of Advanced Networking Infrastructure 
and Research has now recognized the need to support end-to-end 
application development through funding of advanced network services, 
and has concluded that direction and support in this area is vital for 
full utilization of our NGI resources to be realized. This conclusion 
has been fully endorsed in the Internet2 community. Certainly, although 
there is disappointmentwith the current state of application 
development, the essential infrastructure is now in place, thanks to 
federal agency support. It is critical that disappointment does not 
lead to this support being abandoned and a loss of momentum; continuing 
support will serve to enable us to exploit achievements to date and 
realize the full potential of the NGI.
    While The University of Tennessee, like many of its peers, has 
faced challenges to application development, it has still been in a 
position to reap other benefits of membership in the NGI/Internet2 
community. Some of the benefits of NGI participation are obvious--
access to collaborative tools, remote virtual environments, remote 
instrumentation, distributed computing resources, and digital 
libraries, for example. However, as Research-1 institutions coalesce 
around the NGI/Internet2 focus, additional and equally significant 
benefits for their Information Technology organizations and 
constituencies have emerged-sharing of resources and expertise, 
development of a skilled IT workforce, emergence of multi-institutional 
partnerships and collaborations, and the leveraging of these 
partnerships towards more effective relationships with industry and the 
vendor community, and the opportunity to contribute to the design and 
implementation of the NGI.
    The University of Tennessee has made good use of these membership 
advantages, and has demonstrated leadership in NGI/Internet2 in 
initiating and fostering multi-institutional collaborations, such as 
The Video Development Initiative, a multi-institutional effort to 
promote the deployment of digital video in higher education, and the 
Internet2 Distributed Storage Infrastructure (I2-DSI), a replicated 
hosting service for Internet content and applications. The University 
of Tennessee Health Science Center in Memphis is an active member of 
the ``Early Harvest'' Internet2 initiative which seeks to provide 
privacy, authentication and authorization tools to support medical 
applications. The Health Science Center and The University of Tennessee 
College of Veterinary Medicine are also participating in a new Health 
Sciences initiative sponsored by Internet2.
    The University of Tennessee is currently endeavoring to leverage 
its own resources, and the collective resources it now has access to, 
towards application development. Brief descriptions of some of the 
applications underway at The University of Tennessee illustrate how 
NGI-enabled applications can enrich instruction and research.
    Virtual Rounds is an application at The University of Tennessee 
College of Veterinary Medicine that entails the sharing of live animal 
clinical caseloads with the colleges of veterinary medicine in the 
southeast. Geographical obstacles have previously restricted veterinary 
teaching hospitals from sharing caseloads, but by taking turns at 
presenting live cases via high-quality teleconferences, the 
participating colleges can not only increase the number and variety of 
live animal cases their students are exposed to, but can also benefit 
from interaction with their peers. Sharing of clinical cases is the 
first step in the exploitation of emerging technologies and NGI 
capabilities for the sharing of resources and for collaboration in 
veterinary medical education.
    Since 1995, the Radiology Department at The University of Tennessee 
Health Science Center in Memphis has utilized remote directed abdominal 
ultrasound, with a radiologist at a central site monitoring and 
directing ultrasound studies being actually performed by trained 
technologists at various sites throughout Memphis and West Tennessee. 
While one of these studies can be relatively easily accommodated on 
commodity telecommunications links, abdominal ultrasound is only one of 
many radiology studies which itself is a subset of other medical 
procedures. To mature from a niche application to comprehensive remote 
delivery of patient procedures will require significant additional 
aggregate bandwidth. In addition, The University of Tennessee Health 
Science Center operates training programs and has numerous clinical 
interactions at many sites, including Jackson, Dyersburg, Nashville, 
Knoxville and Chattanooga, while The School of Nursing in Memphis 
offers graduate degrees entirely over the Internet. However, with the 
congestion on today's commodity Internet, there are limitations to the 
scale and degree of interactivity achieved.
    The health sciences arena is one that is likely to be greatly 
impacted by the NGI, but application developments are still in their 
infancy and much of the promise remains to be tapped. The National 
Institute of Health has been a strong advocate of the NGI but support 
for grass-root efforts and an ubiquitous high speed networking 
infrastructure for use in telemedicine, medical research and distance 
education applications is critical. With the enabling infrastructure in 
place, for example, The University of Tennessee at Chattanooga would be 
able to access the large gene databases located at the Department of 
Energy and other sites to support its participation in the human and 
mouse genome projects, and enhance its offerings in biological science 
education.
    The University of Tennessee is partnering with regional and 
national networking organizations (The National Laboratory for Applied 
Network Research (NLANR), the National Center for Atmospheric Research 
(NCAR) and the Pittsburgh Supercomputing Center) to work towards a 
solution to the poor performance of large file transfer. The short-term 
goal is to meet theimmediate demand at The University of Tennessee for 
large data transfer, demand from faculty/researchers in High Energy 
Physics, and Computer Sciences, for example. Over the long-term, the 
envisioned goal of this project, called Web100, is to arrive at 
improved performance in commercial host software in general in order to 
fully avail of bandwidth.
    The University of Tennessee has recently accelerated its 
application development, and is also planning additional applications, 
including the development of virtual design studios for use in 
architectural instruction and research, the creation of high-quality 
on-demand live and archived digital video assets for use in all 
disciplines, digital library development, and the fostering of 
collaborative opportunities through the development of a high-quality 
teleconferencing-over-IP service.
    Finally, with the recent award to The University of Tennessee and 
Battelle partnership of the management contract for The Oak Ridge 
National Laboratory, The University of Tennessee, Oak Ridge Associated 
Universities (Duke University, Florida State University, Georgia 
Institute of Technology, North Carolina State University, University of 
Virginia and Virginia Tech), and The Department of Energy will now be 
able to pool and leverage NGI resources and expertise towards 
supporting and fostering excellence in areas such as neutron science, 
distributed computing, biotechnology and advanced materials, and 
network research.
    ``Advanced Networking for All of Higher Education: Recommendations 
and Report from the Institutional Opportunities for Advanced 
Networking'' <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="541a312014111001">[email&#160;protected]</a> Conference, January 1999, Austin, Texas: p. 7.

CONCLUSIONS

    In conclusion, I hope my testimony demonstrates the eagerness of 
The University of Tennessee at Chattanooga to participate in the NGI/
Internet2. I hope that I have also shown that funding for enabling 
infrastructure is just the beginning, and much more can be achieved if 
federal agency support continues. One recommendation would be to change 
the Internet2 fee structure to allow levels of membership based on an 
institution's expected use of the network. Current network use does not 
even come close to exceeding bandwidth limits, and the benefits gained 
from expanded access to campuses like The University of Tennessee at 
Chattanooga are far greater than the risk of system overload.
    The higher educational community is just starting to witness the 
first fruits of the NGI, but already there is ample evidence of the 
contribution the NGI is likely to make to successfully fulfill our 
research, instruction and public service missions in the 21st Century.
    In closing I would like to leave you with this. The steel rails 
used to deliver goods and information in the past have been replaced by 
miles of electronic fiber. Since the fiber network largely follows the 
rail lines, the University of Tennessee at Chattanooga is well situated 
geographically to access the fiber networks necessary for NGI and 
Internet2 use. The dream of a Tennessee Technological Corridor running 
from Knoxville to Oak Ridge to Chattanooga will not be a reality until 
The University of Tennessee at Chattanooga is afforded participation in 
the NGI and Internet2. Oak Ridge, Tennessee, well known as a major 
computational center, is only 90 miles from Chattanooga; however, it 
may as well be across the country because of The University of 
Tennessee at Chattanooga's inability to access it through a high speed 
network. Please help us bridge that 90 miles, and we guarantee the 
investment will be multiplied in return.

    Senator Frist. Thank you, Dr. Stacy.
    Mr. Tolbert.

  STATEMENT OF STEPHEN TOLBERT, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, GLOBAL SYSTEMS & STRATEGIES, INC.

    Mr. Tolbert. Thank you, Senator Frist. I thank you for the 
opportunity for inviting me to speak about this compelling 
issue.
    I am Steve Tolbert. I am the President of Global Systems & 
Strategies. We are a small, fast-growing network architecture 
design firm. My company provides high-end network engineering 
consulting services to a variety of private sector clients as 
well as government agencies, including the Health Care 
Financing Administrator, Department of Defense, and the Food 
and Drug Administration.
    I am also a member of the Northern Virginia Technology 
Council Board of Directors and Executive Committee. And as 
such, I am the founder and Chair of NVTC's Telemedicine Working 
Group, which is a new regional initiative in telemedicine.
    In speaking today, I represent the perspective of my firm 
as well as other private sector interests in high technology, 
as both consumers and also designers of Internet services, and 
also the perspective of the NVTC Telemedicine Working Group.
    Our society's dependence on information technology and the 
Internet services that glue us together is growing at a 
staggering rate. Every day more businesses, more Federal, state 
and local government agencies and more individuals jump to new 
Internet-based services and technologies as a way of getting 
just about anything done.
    To appreciate our increasing dependency on technology, we 
need only look back 60 days at the Y2K scare. America's public 
and private sector businesses stopped forward progress on many 
fronts and spent billions of dollars vaccinating themselves 
against the Y2K bug. Families across the country even built 
bunkers, with months of supplies, certain that society would 
grind to a halt with crippled technology.
    We are squarely in the midst of the information age, and 
our way of life depends on how we embrace this new order. The 
Internet is at the center of this dramatic trend. It has become 
the connecting fabric of today's modern business and even 
today's modern family. We hand out E-mail addresses as readily 
as we hand out phone numbers today.
    From Fortune 100 businesses to local, family owned produce 
farms, almost every business uses information technology and 
the Internet in some capacity. Today, the Internet is at an 
interesting crossroads. Based partly on 20-year-old technology, 
the Internet's capacity and capabilities are being exhausted by 
our amazing ability to think up new ways to use it. It is 
literally becoming a victim of its own success.
    Today's Internet will not support tomorrow's demands. We 
must begin implementing NGI now to protect our current rate of 
progress and also our global leadership. For example, we are 
fast depleting available unique addresses on the current 
Internet. While work-arounds are available that may extend 
current addressing schemes, they compromise other key features 
and only solve the problem for particular uses of the Internet.
    On the other hand, the address space offered by NGI could 
provide up to 32 unique addresses for every square inch of dry 
land on the planet. Not terribly useful--as a mathematician 
with too much time on his hands--but it is a clear indication 
that we will not be facing this problem again for generations 
if we adopt NGI.
    Other problems relate to the current technology's inability 
to adequately support new uses, such as transmission of high-
speed real-time multimedia images, like complex medical images 
or full-screen, full-motion video conferencing. A single MRI 
image can include up to 20 gigabytes, 20 billion bytes of 
information, which, over a standard dial-up Internet 
connection, would take roughly 38 days to transmit. I would 
submit that in some cases the transmission would outlast the 
patient.
    If you are fortunate enough to have access to a, quote, 
unquote, high-speed T-1 connection, it would take more than 30 
hours. A typical connection to NGI would move this image in 30 
seconds, and allow real-time diagnosis.
    Finally, our national telecommunications infrastructure 
does not provide adequate access to today's Internet. While 
most regions have telephone access, and therefore low-speed 
access to the Internet, many rural areas do not have higher-
speed services critical for applications such as, again, 
telemedicine.
    Consider the transmission of medical images--even less 
complex x-rays. Support for full-motion, full-screen video 
conferencing between remote patients and physicians or 
specialists requires three to six times the speed of a standard 
telephone line. Rural access to NGI could support such services 
as lifelike video conferencing and real-time transmission of 
medical images, including full-motion images, such as 
ultrasound.
    There are more esoteric applications, such as telerobotic 
surgery, that are made possible by the bandwidth promises of 
NGI. These advantages, or advances, would not only change the 
cost of rural health care and, in fact, national health care, 
they would save lives.
    The Next Generation Internet and its supporting 
technologies can solve many of the current obstacles and truly 
enable the next generation of information technology. For 
example, NGI supports high-speed multimedia transmission, 
including voice, enhanced security, vastly increased 
addressing, and more robust fault resistance. But while many of 
the specific technologies needed have been developed by various 
public and private consortia and research organizations, there 
is still substantial work ahead to make NGI viable and a 
national solution.
    Additional research in high-speed, high-availability 
network technologies is needed to produce the next wave of 
higher-speed yet inexpensive network equipment and software. 
Specifically, research is needed to support affordable high-
speed rural access with technologies such as wireless and 
satellite communications. There is also much work to be done 
planning the transition to NGI. The process of migrating the 
Nation's pervasive Internet technology to a new generation of 
technologies is non-trivial and, by some estimates, may cost up 
to $100 billion.
    I would argue, however, that the alternative of an 
exhausted Internet would cost more, through lost revenues, lost 
competitive edge, and the inability to deliver needed services. 
If we agree, then, that the reasons to move NGI are clear and 
compelling, the remaining question becomes: Why should the 
government dedicate substantial funds to the issue? Why won't 
natural market forces compel the high-technology industry to 
develop and deploy NGI on its own?
    I would argue that substantial progress on specific fronts 
by private industry is probably inevitable. However, I would 
also argue that the development of a coherent solution in the 
timeframes needed before the current Internet becomes a barrier 
is unlikely without additional motivation and focus. For 
example, without directed research, few companies would make 
near-term investments in high-speed rural access. The economics 
simply do not support it.
    In this case, there is a divergence between the national 
interests on the one hand and the competitive interests and 
pressures of the private sector on the other. As I stated 
earlier, to ignore the rural access issue could cost lives. 
Motivated by Federal support, industry could develop and deploy 
technologies that, in providing lower-cost rural access, could 
improve availability of quality health care and help to narrow 
the digital divide.
    Federal investment and coordination would also provide two 
other fundamental benefits. It would certainly accelerate 
progress toward a faster, more robust national 
telecommunications infrastructure. Furthermore, it would serve 
to homogenize the diverse efforts of those involved, leading to 
national technical standards and avoiding the frequent delays 
introduced by competing proprietary technologies.
    Other dividends produced by the investment would include 
the following: First, achieving a faster, more robust national 
telecommunications infrastructure would support additional 
economic growth, not just in the high technology industry, but 
across every industry that could benefit from universal access 
to fast, reliable communications. There is clear precedence in 
the dividends produced by investments in the technology 
sector--a sector that accounted, as Dr. Lane pointed out, for 
roughly one-third of the economy's growth between 1995 and 
1998.
    Second, the country has enjoyed global competitive 
leadership that in fact began with similar investments in 
infrastructure that fueled the industrial revolution 100 years 
ago. Accelerating the deployment of a more capable 
infrastructure would help to sustain this leadership, both 
business-to-business relationships and collaboration among 
research and educational institutions would be enhanced.
    Often overlooked in discussions about advanced technology 
investments, the social impact of an improved national 
telecommunications infrastructure would be profound. Again, 
regarding telemedicine, the impacts on the delivery and access 
to timely, high-quality health care services alone could 
improve the quality of life.
    Finally, the government itself is a substantial consumer of 
telecommunications services and would benefit directly from 
accelerated deployment of a faster, more secure 
telecommunications infrastructure, though, admittedly, this 
would be initially tempered by the government's own transition 
costs.
    In conclusion, I strongly support the changes to the Next 
Generation Act that this subcommittee is considering, and I 
again appreciate the opportunity to speak to you today about 
this.
    [The prepared statement of Mr. Tolbert follows:]

 Prepared Statement of Stephen Tolbert, President and Chief Executive 
              Officer, Global Systems and Strategies, Inc.
    Chairman Frist:

    My name is Steve Tolbert and I am the president of Global Systems & 
Strategies, Inc., (GSS) a small, fast-growing network architecture 
design firm in the mid-Atlantic region. My company provides high-end 
network engineering consulting services to a variety of private sector 
clients as well as Government agencies such as HCFA, DOD, and FDA. I am 
also a member of the Northern Virginia Technology Council (NVTC) board 
of directors and executive committee, and as such, am the founder and 
chair of NVTC's Telemedicine Working Group. In speaking here today, I 
represent the perspective of my firm, as both a consumer and designer 
of Internet services, as well as that of the NVTC Telemedicine Working 
Group.
    Our society's dependence on information technology and the Internet 
services that glue us all together is growing at a staggering rate. 
Every day, more businesses, more federal, state, and local government 
agencies, and more individuals jump to new internet-based services and 
technologies as a way of getting just about anything done. To 
appreciate our increasing dependency on technology, we need only to 
look back 60 days at the Y2K scare. America's public and private sector 
businesses stopped forward progress on many fronts and spent billions 
of dollars vaccinating themselves against the Y2K bug. Families across 
the country even built bunkers stocked with months of supplies, certain 
that society would grind to a halt with crippled technology. We are 
squarely in the midst of the information age and our way of life 
depends on how we embrace this new order.
    The Internet is at the center of this dramatic trend. It has become 
the connecting fabric of today's modern business and even today's 
modern family. We hand out e-mail addresses as readily as we hand out 
phone numbers. From Fortune 100 businesses to local, family-owned 
produce farms, almost every business uses information technology and 
the internet in some capacity.
    Today, however, the internet is at an interesting cross-roads. 
Based partly on twenty-year old technology, the Internet's capacity and 
capabilities are being exhausted by our amazing ability to think up new 
ways to use it. It is becoming a victim of its own success. Today's 
Internet will not support tomorrow's demands--we must begin 
implementing the Next Generation Internet (NGI) now to protect our 
current rate of progress and our global leadership.
    For example, we are fast depleting available, unique addresses on 
the current Internet. While work-arounds are available that may extend 
current addressing schemes, they compromise other key features and only 
solve the problem for particular uses of the Internet. The address 
space offered by NGI could provide up to 32 unique addresses for every 
square inch of dry land on the planet--not terribly useful, but a clear 
indication that we would not be facing this problem again for 
generations.
    Other problems relate to the current technology's inability to 
adequately support new uses such as transmission of high-speed, real-
time multi-media images like complex medical images or full-screen, 
full-motion video conferencing. A single MRI image can include up to 20 
gigabytes of information, which, over a standard dial-up Internet 
connection, would take roughly 38 days to transmit. If you're fortunate 
enough to have access to a ``high-speed'' T-1 connection, it would 
still take more than 30 hours. A typical connection to NGI would move 
this image in 30 seconds.
    Finally, our national telecommunications infrastructure does not 
provide adequate access to today's Internet. While most regions have 
telephone access and therefore, low-speed access to the internet, many 
rural areas do not have higher speed services critical for applications 
such as telemedicine. Again, consider transmission of medical images, 
even less complex x-rays. Support for full-screen, full-motion video 
conferencing between remote patients and physicians or specialists 
requires 3--6 times the speed of a standard telephone line. Rural 
access to NGI could support such services as life-like video 
conferencing and real-time transmission of medical images (including 
full-motion images such as ultrasound.) These advances would not only 
change the cost of rural health care--they would save lives.
    The Next Generation Internet and its supporting technologies can 
solve many current obstacles and truly enable the next generation of 
information technology. For example, NGI supports high-speed multi-
media transmission, including voice over IP, enhanced security, vastly 
increased addressing, and more robust fault resistance. But, while many 
of the specific technologies needed have been developed by various 
public and private consortia and research organizations, there is still 
substantial work ahead to make NGI a viable, national solution.
    Additional research in high-speed, high-availability network 
technologies is needed to produce the next wave of higher speed, yet 
inexpensive network equipment and software. Specifically, research is 
needed to support affordable, higher-speed rural access with 
technologies such as wireless and satellite communications. There is 
also much work to be done planning the transition to NGI. The process 
of migrating the nation's pervasive Internet technology to a new 
generation of technologies is non-trivial, and by some estimates, may 
cost up to $100 billion. I would argue, however, that the alternative 
of an exhausted internet would cost more through lost revenue, lost 
competitive edge, and the inability to deliver needed services.
    If we agree that the reasons to move to NGI are clear and 
compelling, then the remaining question becomes, ``why should the 
federal government dedicate substantial funds to the issue?'' Why won't 
natural market forces compel the high-technology industry to develop 
and deploy NGI?
    I would argue that substantial progress on specific fronts by 
private industry is probably inevitable. However, I would also argue 
that the development of a coherent, more capable national 
telecommunications infrastructure that, at the same time treats both 
rural, individual access and urban, Fortune 100 access in the 
timeframes needed before the current Internet becomes a barrier, is 
unlikely without additional motivation and focus.
    For example, without directed research, few companies would make 
near-term investments in high-speed rural access--the economics simply 
don't support it. In this case, there is a divergence between the 
national interest on the one hand and the competitive interests and 
pressures of the private sector on the other. As I stated earlier, to 
ignore the rural access issue could cost lives. Motivated by federal 
support, industry could develop and deploy technologies that, in 
providing lower cost rural access, could improve availability of 
quality health care and help to narrow the digital divide.
    Federal investment and coordination would also provide two other 
fundamental benefits. It would certainly accelerate progress towards a 
faster, more robust national telecommunications infrastructure. 
Furthermore, it would serve to homogenize the diverse efforts of those 
involved, leading to national technical standards and avoiding the 
delays introduced by competing, proprietary technologies.

    Other dividends produced by this investment would include the 
following:

    <bullet>  Achieving a faster and more robust national 
telecommunications infrastructure would support additional economic 
growth, not just in the high technology industry, but across every 
industry that could benefit from universal access to fast, reliable 
communications. There is clear precedence in the dividends produced by 
investments in the technology sector, a sector that accounted for 
roughly \1/3\ of the economy's growth between 1995 and 1998.
    <bullet>  This country has enjoyed global competitive leadership 
that in fact began with similar investments in infrastructure that 
fueled the industrial revolution 100 years ago. Accelerating the 
deployment of a more capable telecommunications infrastructure would 
help to sustain this leadership. Business to business relationships and 
collaboration among research and educational institutions would be 
enhanced.
    <bullet>  Often overlooked in discussions about advanced technology 
investments, the social impact of an improved national 
telecommunications infrastructure would be profound. The impact on the 
delivery and access to timely, high-quality health care services alone 
could improve quality of life across the country.
    <bullet>  Finally, the government itself is a substantial consumer 
of telecommunications services and would benefit directly from 
accelerated deployment of a faster, more secure telecommunications 
infrastructure, though, admittedly, this would be initially tempered by 
the government's own transition costs.

    In conclusion, I strongly support the changes to the Next 
Generation Internet Act under consideration by this subcommittee.
    Thank you for allowing me the opportunity to speak to you today 
about this compelling and timely issue.

    Senator Frist. Thank you, Mr. Tolbert.
    Let me ask each of you a couple of questions. Dr. Meredith, 
you commented on the desire of many non-ESPCoR states to 
participate in the program because it does respond to a basic 
need, basic infrastructure support, that is necessary to 
enhance a national research base. Do you believe this need for 
infrastructure support may become a national problem as we go 
forward into the future?
    Dr. Meredith. I do not think there is any question about 
it, Senator. We cannot do our work. We have so much capability 
on so many campuses that are not located in all the places that 
my good friend, Chancellor Stacy, was talking about. We have 
such incredible pockets of talent that need to have an outlet. 
And if that infrastructure is not present, if it is not there 
to allow that outlet to occur, the Nation loses. Our states 
lose.
    As you know, ESPCoR particularly is directed toward 
research that benefits that state in particular and the Nation, 
as well. But it must directly impact that state. All that is 
lost if the infrastructure is not available to allow those 
people the access.
    Senator Frist. Chancellor Stacy, could you comment on how 
membership in Internet II factors into who receives grants from 
the NSF and other Federal agencies?
    Dr. Stacy. The first part of the access is that 
connectivity. And that becomes really the first part. And for 
small institutions such as ours, for instance, you start by 
needing to pay a membership fee in UCAID. And then it becomes a 
matter of your need to purchase additional somethings, maybe 
like Abilene, the connectivity, and on and on. And then it 
becomes the phone line. It costs about $300,000 for the first 
step, just to begin.
    Once that $300,000 is expended and you achieve the 
memberships, then you are able to play in the arena, to seek 
the NSF grants and other things. But it is that first level of 
connectivity that is the barrier to many. Sometimes it is the 
last mile of the phone line that has to bring that potential to 
you.
    So, just in every case, it is a priority choice to decide 
where does that $300,000 investment go, and it is so critical 
and we ought to be making it. And yet, across the country, if 
we only have that done in 150 places out of 4,000 schools, we 
are missing potential and we are leaving faculty, very bright 
people, stranded by having simply not the access to it.
    Senator Frist. When Dr. Colwell said the NSF is reaching--
when I said what you were going to say--and she said they were 
reaching out in other areas, could you put that in perspective 
for us?
    Dr. Stacy. Well, yes. As a member of the Internet II, the 
University of Tennessee Knoxville campus was the recipient, in 
1997, of that NSF high-performance connection grant of 
$350,000. But you have got to get there first. And one of the 
items that I would I guess plead as you bring the revisions to 
the bill is that that basic first step of access be provided in 
some way. Maybe it is a prorated part of use. Maybe it is a 
part of the flagship campus. Maybe it is related to a national 
lab nearby. We sit 80 or 90 miles from Oak Ridge, 100 miles 
from Knoxville, and it is as much as if it were 1,000 miles.
    Senator Frist. The other programs that she mentioned, do 
you take advantage of any of those that Dr. Colwell mentioned?
    Dr. Stacy. And it is that first level of access. If you do 
not get the connectivity, you are shut out of any of them. So 
it is such a first step for us that it is a big part.
    Senator Frist. Mr. Tolbert, first, thanks for your 
testimony. Your examples in there and your medical examples are 
very useful to me. Because a lot of people, both I am sure in 
your business, though you are consulting with people who 
already understand what they need or you help them understand 
what they need, but when you talk about the Next Generation 
Internet, it is very helpful to have very specific examples, 
whether it is medical images, comparing it to what comes 
through the telephone line or your other examples in terms of 
imaging and T-1 connections and what they do from MRI's.
    I am fascinated and would ask you to elaborate on your 
comment right at the end of your presentation about how Federal 
investment can homogenize and help in some way sort out a 
mishmash, diverse environment, and give some discipline in 
terms of standards that can then be promulgated out to the 
private sector. Could you comment on that and the role of 
government vis-a-vis an environment of competing technologies? 
Each of them, I am sure, want to develop their own standards.
    Mr. Tolbert. I think it is a very important aspect of what 
you are trying to do. And I think that, as you know, the 
industry sort of creates new ideas and new value in the 
Internet economy. And it is not so much in evolutionary steps, 
it is explosive steps. And it is very difficult to sort of get 
ahead of that activity and provide some guidance. And a lot of 
the explosive steps that are successful and that sort of take 
tend to have sort of direct economic value. And that is what 
drives them.
    And I think that what that often leads to, however, is, 
one, competing standards, or technologies that address sort of 
80 percent of the problem or, in some cases, 20 percent of the 
problem, with 80 percent of the economic gain. And so I guess 
my feeling about the role of Federal investment and the ability 
to select how grants are made and what activities are supported 
is the ability to sort of help steer the explosion of these new 
technologies so that we do not develop multiple competing 
technologies, we do not ignore the last mile and rural regions, 
for example, where, again, the economic model simply does not 
support what most companies would invest on their own.
    So, again, it is not only helping fill in the gaps where 
the private sector would not address technology, but it is also 
making sure that most of the explosions are in a consistent 
direction and with some vision that is useful in the broader 
sense. I think that a lot of companies are driven by relatively 
short-term vision and returns as opposed to something that we 
need to do today that will affect us substantially in 5 or 10 
years. And I think that by directing investments you can effect 
that direction.
    Senator Frist. Thank you.
    Dr. Stacy, what about recruitment? Since we are on this 
huge or rapidly climbing curve in terms of Internet technology 
that we hope to make even more rapid in terms of its ascent. 
When you talk to faculty and students--and again, I was 
reminded when the young students were in here earlier today--
when you are recruiting faculty and students, how important is 
the access to high-speed networks like NGI, Abilene, in your 
ability to recruit?
    Dr. Stacy. Your instincts are exactly right on. When that 
digital divide separates that faculty member who has been at 
the research 1, the doctoral program, has utilized the greatest 
sophistication of combinatorics, when that computational 
sophistication is not available at the next place, how does 
that person continue his or her research?
    So it sets up, again, the divide, of that very best faculty 
member whom you want has had that experience. And to move to 
another institution lacking it is just very tough on that 
faculty member. It has implications to the curriculum. It has 
implications then to the faculty. It does set up that have and 
have-not.
    Senator Frist. Dr. Meredith, let me sort of keep with that 
theme of faculty, faculty recruitment. And considering that 
your state must struggle to meet the connection costs to permit 
these cutting-edge advanced technologies, do you find that the 
system in Alabama has adequate faculty to aggressively compete 
for grants, the grants that are out there--faculty and let us 
take it down to graduate students, as well?
    Dr. Meredith. We are in a constant struggle to stay in that 
battle. We require at our three research universities that they 
generate a significant portion of their operating expenses in 
income. And we have been very successful at that, I would say, 
very competitive, at all three institutions.
    But in order to have those kinds of faculty members who can 
generate those kinds of dollars that also keep the rest of the 
institution going, we have got to have the technology support 
for them. And bringing in the Gigapop into our three 
institutions has been an enormous boon to us in order to keep 
the faculty members we have.
    They now have access to--I would love to take you for an 
hour through the kinds of things that are going on now in our 
institutions--optical electronics, with advanced microchips, 
just on and on. The new advances of medicine, with biomaterials 
engineering, with implants, and so forth. They are able to be 
in concert with their colleagues, in collaboration with their 
colleagues, all over the country. And they can do that from our 
institutions now. They do not have to move now and go somewhere 
else.
    I have a great E-mail here from one of our leading 
astronomy professors, who is in collaboration with some folks 
in Arizona. What he can do now downloading at our institution 
from a telescope in Arizona is unbelievable. He is just 
ecstatic in his E-mail, that he is now competitive. He can 
collaborate with people anywhere in the country and around the 
world and maintain his research and stay in Alabama and get 
that done. It is just essential.
    Senator Frist. Dr. Stacy, the University of Tennessee's 
participation in the MIR Net project would provide Next 
Generation Internet services to Russian scientists and 
educators. Could you tell me a little more about that?
    Dr. Stacy. That is a collaboration, as both countries, 
scientists in both places, are looking at that next generation. 
I think it meets the U.S.'s ambition of having collaborative 
scientific endeavors. We live in this global village, and we 
are finding a great deal of bright colleagues there with whom 
to work. It is a part of an effort that says that intellect is 
not bound up at some national border.
    Senator Frist. Are there other international collaborative 
projects going on that you are participating in?
    Dr. Stacy. I do not know of others similar to MIR net.
    Senator Frist. Dr. Meredith.
    Dr. Meredith. We have a number. And one of the things we 
have found so interesting lately is the collaboration now that 
is going on across borders, and as we look at research articles 
coming out, no longer are there one or two people on so many of 
those articles. Now there are six or seven or eight or 10 
people, and they are located all over the world. And they 
collaborate now because they have the ability to move their 
research back and forth and come to some wonderful discoveries 
together.
    Senator Frist. In my own field of medicine, before coming 
to the U.S. Senate, it was very early on, but--now it seems 
like ancient history, based on all the discussions and the 
speed with which things have moved--but it was fascinating in 
terms of scientific cooperation across borders, which, in 1993 
it was almost unheard of. In 1994, when we first began to 
understand the Internet, it changed and even advanced pediatric 
heart transplantation and basic immunology. And of course now 
it is the rule.
    Mr. Tolbert, do you feel that the pace of NGI research--we 
talked a little bit about funding and this doubling curve, but 
in terms of the research itself, the substance of the research, 
the pace, the advance, is it able to meet what you perceive are 
the private sector's needs or demands in a timely fashion?
    Mr. Tolbert. If I were to consider concepts to 
commercialize the application of technology, I would say that 
it is not able to keep up with demand. I think that it takes 
quite a bit of activity to get a concept to the point where it 
is sliding down the price slope. And that is when it becomes 
commercially viable, or viable for consumption. And that 
typically takes a tremendous amount of time. I think that it is 
happening today with NGI technologies.
    At the same time, I would say that in some specific areas 
there have been great strides. And certainly what is in place 
now and the connections that these two gentlemen benefit from 
are a great example of the fact that some of the technologies 
are there now and can be deployed and made useful.
    But, again, I think my overall comment would be that there 
is not enough going on and not enough urgency to make it 
commercially viable to keep up with demand. I think that, in 
general, demand is always just slightly ahead of what is 
available to support it.
    Senator Frist. You talked in your testimony about the cost 
and you threw a figure out. And since I may use that figure I 
want you to help me with it. The cost of migrating the Nation's 
pervasive Internet technology to a new generation of 
technologies is not small, not trivial, as you said. And you 
had the figure of $100 billion in there. Before I go and use 
it, I want you to tell me where that estimate roughly comes 
from.
    Mr. Tolbert. If I am not mistaken, and I will verify this 
after I leave, that it is from a Department of Commerce study.
    Senator Frist. And the types of activities that this 
deployment would involve are what?
    Mr. Tolbert. If you think of it in terms of infrastructure, 
certainly there is equipment and software that simply needs to 
be deployed. There is also physical connections that need to be 
made between huge high-speed hubs for the new infrastructure. 
But there is also organizational planning on the part of 
individual consumers.
    There is a very specific transition of technology. There is 
sort of an evolution from one technology to the other and, at 
some point, probably coexistence of multiple protocols like IP 
version 4 and IP version 6. And all of that takes a great deal 
of planning. It is something that is probably done incremental. 
And out of that came this estimate.
    There is a very important issue, I think. When you think 
back, again, 60 days, on the huge investment that was made in 
Y2K inoculation, the investment was made, billions of dollars, 
basically to be able to stay in business on January 2nd the way 
you were 2 days before. And there was not, in most cases, a 
substantial return on that investment, other than the fact that 
it certainly stirred up a lot of economic activity.
    In this case, this is $100 billion to purchase substantial 
new capability. So it is not just doing it because we are 
tapped out and we have run out of bandwidth. It is actually 
making an investment, but getting a quantifiable return for 
large organizations. So it is important to note that it is a 
staggering number but, at the same time, there is direct, 
tangible, measurable benefit coming out of that investment.
    And, again, if I am not correct on the source, I will 
contact your office.
    Senator Frist. Fine, that would be helpful.
    I will close with this, and I appreciate everybody's 
patience. It is fascinating for me, and I do want to make sure 
we are moving in the right direction and that we learn from 
each round as we go through. So the oversight function part of 
what we are talking about today is very important to help give 
us direction.
    One last question, Mr. Tolbert, and it goes back to the 
international component. Our leadership in the United states, 
the industrial revolution, the parallel that you made, right 
now where we are versus other nations, is commerce slowed down 
or impeded? Obviously when you get to imaging, medical imaging, 
broadband transmission of data, more video, it is going to be 
slowed down. International transmission of data now, is it 
slowed down because our infrastructure is more advanced than 
other countries?
    Mr. Tolbert. I think that in certainly some industries it 
has. Ironically, in some countries that have made very specific 
investments in high-speed infrastructure, telemedicine is more 
advanced, or, not necessarily more advanced, but more pervasive 
and put to use more commonly.
    At the same time, there is sort of a natural evolution to 
Internet maturity, where it starts with kind of Internet 
publishing and graduates to commerce and competitive advantage. 
And I think that in that sense we hold the lead by a 
substantial margin. And this is according to a recent study by 
IDC. That will be impeded, though.
    If you agree that three times the number of current users 
will be online in three years and, at the same time, they are 
going to be online for longer periods of time, using 
applications that are much thirstier and can use substantially 
more bandwidth, you will end up hitting some barriers in that 
continued leadership. And I think that that is where I see the 
investment needed today to start moving in that direction 
rather than to waiting until we start to see those choke 
points.
    Senator Frist. Thank you.
    To all three of our witnesses and the witnesses of the 
first panel, I want to thank you. Your expertise and your 
analysis are tremendously helpful as we go through and try to 
better understand the true nature of the current Internet's 
limitations. Your recommendations are tremendously helpful as 
we improve legislation that has previously been before this 
committee and as we look at other legislation.
    I look forward to continuing the dialog that we have begun 
and continued today. And I look forward, again, in hearing, 
either next year or 12 months from now, what we can learn, 
should have learned, from our discussions today as we go 
forward. Again, thank you very much.
    With that, we stand adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                            A P P E N D I X

              Prepared Statement of Hon. John B. Breaux, 
                      U.S. Senator from Louisiana

    Chairman Frist, I want to thank you for kicking off the Science 
Subcommittee's agenda by examining the future of the Internet, 
specifically the Next Generation Internet (NGI) and Large Scale 
Networking programs. This is an appropriate topic--advances in 
technology are strongly linked to economic growth. Our dominant high 
technology industries are currently responsible for one-third of our 
economic output and half of our economic growth. Federal Reserve 
Chairman Alan Greenspan stated last year that an unexpected leap in 
technology is primarily responsible for the nation's ``phenomenal'' 
economic performance.
    The folks who make and program the computers aren't the only ones 
sharing in this economic growth. The Internet its world wide web are 
giving us new ways to communicate--and do business--electronically.
    Our nation has made great strides using the current Internet, and 
we can all just imagine what advances we could make with a higher-
bandwidth, more reliable Next Generation Internet. We could have the 
network capacity to monitor and integrate information from thousands of 
sensors to improve our responses to floods, hurricane, or other natural 
disasters. This research could make robotics a part of our daily lives 
and staying in touch everywhere with wireless, high-speed connections 
regardless of where we live or work.
    But as we look to the technological advances which could 
revolutionize information technology, we must also remember that not 
all Americans are sharing in the current high-tech prosperity. The 
current Internet is not available to a disproportionate number of low 
income and minority Americans and of Americans living in rural areas. 
As the NGI program continues, we should make sure that the structure of 
our future networking infrastructure does not build in more problems, 
like higher cost of access for rural users. I look forward to 
addressing these concerns today.
    Dr. Lane, I am sure that you will rightly point out that the Next 
Generation Internet and Large Scale Networking are only a small part of 
the Federal investment in information technology research and 
development (R&D). While expanding the capacity and reliability of the 
Internet is an important piece, it is only one piece of a broader 
information technology R&D agenda. I look forward to working with you 
to address that broader agenda as well.
    I would like to congratulate the Administration for the level of 
R&D investment spelled out in the FY 2001 budget. While I am sure that 
many of us would have prioritized spending by each agency differently, 
the overall increase of $2.5 billion or 6% over the FY 2000 level for 
civilian R&D is in line with this subcommittee's commitment to doubling 
civilian R&D over the next ten to twelve years.
    Finally, welcome to all of our witnesses from government, industry 
and academia. You can all give us a different perspective on the 
current NGI program and what investments are needed to build an 
Internet of the future that is available to and affordable for every 
American.
                                 ______
                                 
            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Chairman Frist, thank you for holding this hearing today on the 
Next Generation Internet (NGI) program and the NGI 2000 Act, S. 2046, 
which Senators Rockefeller, Breaux, Roberts, and I joined you in 
introducing in February. This bill is a straight-forward and basic 
authorization of funding for the Next Generation Internet (NGI) and is 
based on the Administration's NGI policy.
    Everyone acknowledges that the current Internet is a huge 
commercial success and consequently is becoming a victim of its own 
success. With more and more subscribers, the Web is getting more and 
more crowded, and the response time is growing slower and slower.
    The NGI program is focused on advancing the current speed and 
usability of the Internet and university research capabilities while 
assisting federal agencies in their missions using these resources. The 
NGI can provide the critical research into the necessary technology to 
get the U.S. to the next phase and to maintain U.S. dominance in this 
field.
    When we created NGI in 1998, we laid out a bold set of expectations 
for the first three years of the program. Plainly and simply, we set an 
action plan to overhaul the Internet's infrastructure. Three years 
later, this hearing should help us learn what the program has achieved, 
where it should go, and what our future investments in networking 
infrastructure should be.
    With all of the hoopla about the so-called ``digital economy'' and 
ads for dot-com companies on every billboard, it's easy to forget the 
folks who the Internet has passed by. Members of this Committee have 
tried to bring the current Internet to minority, low-income, and rural 
communities. We must ensure that as we look to the Next Generation 
Internet, that high-speed technology is available to these communities. 
Senator Frist, your bill makes a good start by setting aside some 
research funding for solving rural problems and to be spent at small or 
minority-serving colleges. The bill also would ask the National Academy 
of Sciences to address the contribution that the network infrastructure 
makes to the digital divide--the gap between those with access to 
information technology and those without access.
    Again, thank you for holding this hearing. We have a wonderful 
lineup of witnesses, and I look forward to examining further these 
issues through their fine testimony.
                                 ______
                                 
    Prepared Statement of Douglas Van Houweling, President and CEO, 
        University Corporation for Advanced Internet Development

    Advances in information technology, critical to the continued 
success of science and education in our Nation, depend upon active 
Federal support and investment. The introduction of the Next Generation 
Internet (NGI) 2000 Act, S. 2046 is a welcome step to continue and 
expand Federal networking research authorized by the NGI Act of 1998. I 
commend Mr. Frist and Mr. Rockefeller and members of the Senate for 
their leadership.
    Internet2<SUP>TM</SUP> now engages more than 174 universities, over 
10 corporations and 30 other research organizations in the effort to 
advance the state of Internet applications and technology. Internet2 
collaborates closely with industry and government in advancing research 
in information technology, providing a living laboratory for building 
and deploying advanced networks, services and applications. In 
particular, Internet2 is working to enable applications such as 
telemedicine, digital libraries and virtual laboratories that are not 
possible with the technology underlying today's Internet. Internet2 is 
not a single network, but rather joins member network application and 
engineering development efforts together with many advanced campus, 
regional and national networks.
    The university-led Internet2 and the federally-led Next Generation 
Internet (NGI) are complementary, but separate, initiatives 
successfully working together in many areas. For example, a number of 
Internet2 members have participated in the National Science 
Foundation's (NSF) merit-based High Performance Connections program.
    The backbone networks supporting Internet2 universities work 
together with the NGI testbed networks to provide a seamless high-
performance networking environment for researchers located on both 
university campuses and in government laboratories. The NSF's very high 
performance Backbone Network Service (vBNS) developed by the NSF and 
MCI Worldcom serves as one of the two (along with the Abilene network 
run by Internet2 members) national backbone networks used by Internet2 
members. Internet2 engineers are engaged in regular coordination with 
NGI agencies through the Joint Engineering Team.
    Universities are a principal source of both the demand for advanced 
networking technologies and the talent needed to implement them. 
Universities' research and education missions increasingly require 
collaboration among people and resources located at campuses throughout 
the country, in ways not possible using today's Internet. The NGI 
supported testbeds fill a critical role--they are very large-scale 
Internet environments in which cooperative research, testing and 
development can be carried out. The environment provided by the ESNet, 
NREN, DREN, vBNS and Abilene networks provides a crucial link between 
the laboratory and the information technology industry. Without this 
link, many promising basic research results would go untested and 
undeployed as the commercial marketplace focuses on short-term results 
and solutions.
    Participation in Internet2 is based on a commitment by members to 
the goals of establishing high-performance connectivity among one 
another and developing and deployment of advanced network applications 
and technologies on their own campuses. Membership in Internet2 is open 
to any institution ready to provide the resources to realize these 
goals, and over 170 universities have joined since Internet2 began in 
October 1996. Collectively Internet2 universities have committed over 
$70 million per year in new investment on their own campuses to meet 
the goals of the Internet2 project. While the large-scale nationwide 
backbone networks are a crucial link between member institutions, the 
real challenge is getting high-performance networks not just to the 
edge of the campus but to each desktop on campus. This ``end-to-end'' 
focus on high-performance networking by Internet2 members requires 
substantial commitment of resources by each member--largely to be spent 
on their own campuses.
    A primary goal of Internet2 is to ensure the broad dissemination of 
advanced networking capabilities. Understanding that participation in 
Internet2 is not something every institution will undertake, Internet2 
member universities have developed a structure to enable non-members to 
collaborate with them on important advanced Internet research and 
education applications. For example, a number of Internet2 universities 
have ongoing collaborations with K-12 schools and will be able to 
collaborate with them on projects over their own regional high-
performance networks as well as over the nationwide Abilene network. We 
expect this collaboration to lead to exciting new partnerships with 
other educational institutions, museums, libraries and small start-up 
companies among others.
    We applaud the reauthorization of the NGI and note that this is but 
a part of a larger IT initiative that we believe also deserves 
Congressional support. The larger, balanced portfolio in information 
technology research and development brings to bear Federal support for 
Education and Training, IT Research Centers and Hardware Acquisition in 
addition to supporting Network research and development. These other 
programs we believe are necessary to maintaining the partnership that 
has created the US multibillion dollar industry.
    This NGI authorization legislation is needed to renew the 
partnership between academe, industry and government. Internet2 will 
continue to work to develop and diffuse new technology needed by all 
network users, helping to ensure continued US leadership in computer 
and communications in the world economy.
                                 ______
                                 
    Response to Written Questions by Hon. Bill Frist to Donald A.B. 
                                Lindberg

    Question. For your agency's participation in the NGI program, would 
you offer some perspective on how and how much health care costs may be 
decreased as a result of advanced networking research? Also, would you 
also address the impact of improved quality of service and 
effectiveness of service?

    Answer. The cost of healthcare may or may not decrease as a result 
of advanced networking research. This would be dependent on the cost of 
the technology that advanced networking was replacing and on the future 
cost of what today is considered advanced networking. But the quality 
and timeliness of healthcare will improve through the appropriate use 
of advanced networking capability. For example, a person comes to a 
family doctor with a skin rash and the physician is unable to make a 
diagnosis. The patient is referred to a dermatologist. There is a delay 
until the patient can be seen by the dermatologist and treatment is 
started. And the patient has to take off from work to go to two 
appointments. If the family doctor can obtain a consultation from a 
dermatologist through advanced networking technology, treatment can be 
started immediately and the patient has to go to one appointment. This 
is clearly better and more timely healthcare, but the costs are 
dependent on how one does the cost accounting.

    The issues of quality of service and effectiveness of service both 
refer to the reliability and predictability of a network. Without these 
qualities, a network is unusable for healthcare.

    Question. The ``lessons learned'' from any endeavor are important. 
You mentioned in your written report that in your last phase of NGI 
support for fiscal 2001, a set of ``lessons learned'' will be 
developed. Would you please describe your planned activities to make 
these ``lessons learned'' available to others?

    Answer. NLM plans to hold an open conference at which our contract 
award recipients will give scientific papers dealing with their 
``lessons learned''. The presenters will be required to deliver to the 
NLM written papers dealing with these ``lessons learned''. These papers 
will be published by the NLM on the Web as well as in CD-ROM format. 
NLM will also try to place for publication in the appropriate 
scientific journals as many of these papers as possible.

    Question. What do you believe are the current technological 
obstacles in advanced networking that limit the imaginations of your 
scientists? Does the National Library of Medicine's budget request for 
fiscal year 2001 reflect these long-term goals?

    Answer. The inability of the current internet to guarantee quality 
of service and to provide a means for collaborative research certainly 
limits its scientific usage. NLM's FY-2001 budget reflects these long 
term goals.
                                 ______
                                 
  Response to Written Questions by Hon. Bill Frist to Dr. Rita Colwell
                   Federal Funding of Basic Research

    Question 1. In your written statement you address the growing trend 
in the private sector of only funding applied research with ``maximum 
short-term payoffs''. Therefore, you suggest, it is the federal 
government's responsibility to invest in long-term basic research. Are 
there any types of basic research which you believe the federal 
government should not fund?

    Answer. The National Science Foundation's approach to investments 
in science, engineering, and technology is guided by several 
fundamental principles. Few, if any, types of basic research are beyond 
the scope of the Federal government. In general, Federal R&D 
investments should: (a) sustain and nurture America's world leading 
science and technology enterprise, through pursuit of specific agency 
missions and through stewardship of critical research fields and 
scientific facilities; (b) strengthen science, mathematics, and 
engineering education; ensure their broad availability; and contribute 
to preparing the next generation of scientists and engineers; (c) focus 
on activities that require a Federal presence to attain national goals, 
including national security, environmental quality, economic growth and 
prosperity, and human health and well being; and/or (d) promote 
international cooperation in science and technology that would 
strengthen the advance of science, engineering, and technology. These 
principles apply to all Federal R&D investments.

                             Digital Divide

    Question 2. Would you please describe NSF's ongoing research 
designed to overcome the digital divide and how it complements the work 
that the Department of Commerce is doing in this area?

    Answer. Many NSF activities directly, or as part of other 
activities, address broadening access to information technologies. 
Research activities that address the digital divide include:

    <bullet>  NSF supports research on assistive technology that will 
allow fuller use of computing and communications technology by the 
visually or hearing impaired, those with mobility or dexterity problems 
and the elderly. NSF expects to provide $6.85 million for these 
activities in FY 2000 and has requested an increase to $12.0 million in 
FY 2001.
    <bullet>  In FY 1999 and 2000, NSF supported workshops to define 
the research agenda for understanding why women and minorities are 
under-represented in IT educational tracks and IT careers. Beginning in 
FY 2000, NSF will make research awards to understand the causes and 
provide a solid foundation for remediation to address under-
representation.
    <bullet>  NSF's Next Generation Internet (NGI) program provides 
connectivity to high performance networks to a wide variety of research 
universities. Over 170 connections, including 40 to universities in 
ESPCoR states, provide demonstration projects of the capability and 
potential for high-performance networking. These provide researchers 
access to state-of-the-art network facilities to support their research 
as well as partnerships with other sites.

    NSF is also active in many activities addressing the Science, 
Mathematics, Engineering and Technology education and workforce sectors 
that develop the knowledge and skills necessary to use information 
technology. Activities include:

    <bullet>  Broadening access to the Internet. In addition to the 
ESPCoR connections cited above, there are exemplary projects to develop 
networks for rural populations. The Urban Systemic Initiative and Rural 
Systemic Initiative programs have also funded projects in many areas 
that provide Internet access, as well as training to students, teachers 
and parents.
    <bullet>  Minority institutions: A recent $6.0 million award to 
EDUCAUSE will help minority serving institutions take advantage of the 
next generation of information technology and computer networks. The 
project will assist educators and students to effectively use 
databases, supercomputer centers, virtual reality and tele-
collaboration facilities and other resources for teaching, learning and 
research.
    <bullet>  Advanced Technology Education (ATE): The ATE program 
provides students with laboratory experiences to prepare for careers in 
high technology fields. For example, the Northwest Center for Emerging 
Technologies at Bellevue Community College in Washington works with 
community groups to recruit non-traditional populations into 
information technology studies and careers. They have worked with 
hundreds of students from inner city schools, displaced workers, women, 
minorities and the disabled in programs to prepare their students for 
IT careers.

    The Department of Commerce has numerous programs that address the 
digital divide issue. The NSF programs, which are more focused on 
science and technology research and on the specific needs of the 
science and technology education and workforce sectors, complement the 
Commerce programs by providing them with the technology that they can 
use in their community technology centers, technology transfer to 
industry, and in their teacher training programs.

                          Advanced Networking

    Question 3. We have seen an increasing amount of overlapping 
activity in the past two years of the President's budget requests 
between advanced networking at the Department of Energy and the 
National Science Foundation. What does this overlap suggest about the 
roles of both agencies?

    Answer. While it may seem as though overlap exists between NSF and 
the Department of Energy (DOE) in the area of advanced networking, the 
activities of the two agencies are well coordinated and complementary. 
The activities of NSF, DOE and other agencies active in networking are 
coordinated by the multiagency Information Technology R&D Working 
group, which is supported by the National Coordination Office (NCO), 
and reported annually. The IT R&D Working Group convenes a multiagency 
Working Group on Large Scale Networking that coordinates this specific 
area. Coordination goals include effective communication among 
agencies, avoiding duplication of efforts and expenditures, leveraging 
the research and accomplishments of agencies, and promoting cooperative 
programs where appropriate.
    NSF funding for advanced networking includes two components: 
Advanced Networking Infrastructure (ANI) and Advanced Networking 
Research (ANR). ANI supports the university-based research community 
across the spectrum of science and engineering research areas through 
the vBNS (very high speed Backbone Network Service) which connects over 
170 universities, including 40 in ESPCoR states. Research enabled on 
these networks includes tele-immersion, data mining, visualization of 
scientific and engineering data and calculations, and multimedia. ANR 
focuses on the fundamental research needed to expand the capabilities 
of communications networks; problems addressed include handling greater 
volumes of data, increased number of users, more complex protocols, new 
service types, and flexibility demands of mobile, nomadic and fixed 
environments.
    DOE networking activities also include infrastructure and research 
components with an emphasis on linking heterogeneous (university-
laboratory) networks and moving uniquely large (millions of gigabyte) 
data sets. DOE'S ESnet connects the Department's geographically 
distributed laboratories and provides access for university-based 
researchers to Office of Science facilities, such as synchrotron light 
sources, neutron sources, particle accelerators and supercomputers, 
through an interface with NSF's vBNS. DOE operates facilities that 
produce characteristically massive data sets for use by researchers at 
both national labs and universities. DOE networking research focuses on 
advanced protocols and operating system services for very high speed 
transfers and information surety to enable distributed, data intensive 
computing as well as the software framework (``middleware'') required 
to support large-scale collaborative efforts among its laboratory and 
university researchers.

                      Broadband Last Mile Problem

    Question 4. You stated that the ``Broadband Last Mile Problem'' 
remains a difficult dilemma.

    a. What is NSF doing to solve this problem? Is similar research 
being conducted at other agencies?

    Answer. The ``Broadband Last Mile Problem,'' involves the high cost 
of ``last mile'' broadband Internet connections to end users, and in 
some geographical areas, the total lack of such services. The solution 
to this problem has a number of different dimensions, including some 
that require new technology and others, such as deregulation and 
promotion of competition, which are beyond NSF's scope.
    NSF-supported research in broadband networking and communications 
has resulted in important technology transfer to the private sector, 
such as the Digital Subscriber Line (DSL) service, which is now being 
utilized by telephone companies to implement broadband Internet 
connections to the home. Current NSF and Defense Advanced Research 
Projects Agency efforts include research into wireless broadband 
networking and communications. It is anticipated that such research 
will lead to technical solutions for broadband Internet access in 
locations that are ``hard to wire'' and will promote the expansion of 
the competitive market for broadband Internet services.

    b. In my own home State of Tennessee, Bell South invests more than 
$350 million for modernization and expansion of its Tennessee 
infrastructure every year. This includes widespread deployment of fiber 
optic lines and digital switching at every exchange. Is this a 
``problem'' that the federal government should fix? Should we leave 
this issue for the private sector?

    Answer. NSF's role in solving the ``Broadband Last Mile Problem'' 
is to fund research that may result in new technologies that the 
private sector can develop into solutions, It is clear that the 
solution will come from interactions between the public and private 
sectors.
    NSF has a long history of partnering with the private sector to 
create and support leading-edge information infrastructures (like the 
NSFNET and the Next Generation Internet) for the academic community. 
Further, fundamental research across disciplines has provided an 
important testing ground for new, cutting edge networking technologies 
developed by industry. This has created an environment in which new 
products and services can be tested by the private sector before the 
introduction of new products and services into the retail market.

                           ESPCoR Involvement

    Question 5. Dr. Colwell, can you comment on a growing interest on 
the part of non-ESPCoR states to become involved with the ESPCoR 
program as implied by Dr. Meredith's written testimony for the next 
panel?

    Answer. NSF's ESPCoR program assists states that have historically 
received lesser amounts of federal R&D funding to improve the quality 
of science, mathematics and engineering research that is conducted at 
their colleges and universities. Three non-ESPCoR states have expressed 
interest in joining the ESPCoR program in order to improve their 
academic R&D competitiveness. While NSF is not seeking to add 
additional states to the ESPCoR program at this time, NSF's ESPCoR 
staff is working with representatives from these states to determine if 
their participation in the ESPCoR program is mutually beneficial and 
appropriate.

                     Research Transfer to Industry

    Question 6. You mentioned in your written statement that there is a 
clear pattern of NSF-supported students bringing key insights to 
private industry. Can you discuss this pattern in greater detail?

    Answer. Two studies of NSF support have explored the impacts of 
funding for graduate students on projects with a significant 
engineering component. A two phase study conducted by SRI International 
(full reports can be found at http://www.nsf.gov/pubs/1999/nsf98154/
nsf98154.htm and at http://www.nsf.gov/pubs/1997/nsf9756/nsf9756.htm) 
examined the roles of federal research support in the development of 
six technologies: Magnetic Resonance Imaging (MRI), Reaction Injection 
Molding (RIM), the Internet, Computer Aided Design for Electronic 
Circuits (CAD/EC), Optical Fiber for Telecommunications, and Cellular 
Telephony. The SRI report concluded:

        In our case studies of six engineering innovations, it is 
        therefore not surprising to find that NSF emerges consistently 
        as a major, often the major, source of support for education 
        and training of the Ph.D. scientists and engineers who went on 
        to make major contributions to each innovation.

        Among the six activities that NSF funds, it is this support of 
        education and training that emerges most consistently across 
        all our cases as a significant influence on the evolution of 
        engineering innovation. In some cases (e.g., MRI, optical 
        fiber) key contributors were supported in graduate school on 
        assistantships paid by NSF grants or graduate fellowships; in 
        other cases (e.g., cellular phone, CAD/EC) NSF-supported 
        research grants trained engineers and scientists who were parts 
        of industry teams tackling the technical problems that blocked 
        an innovation's advance; in still others (e.g., CAD/EC) NSF-
        trained engineers became the entrepreneurs who created new 
        firms and markets.

    A third report assessing the benefits and outcomes of the NSF's 
Engineering Research Centers (ERG) program examined the performance in 
career jobs of students who had been supported in their graduate 
studies in center programs. The study (available at http://www.nsf.gov/
cgi-bin/getpub?nsf9840) found that ERG graduates were significantly 
stronger in many job performance areas including: overall preparedness, 
contributions to technical work, depth of technical understanding, 
ability to work in interdisciplinary teams, breadth of technical 
understanding, and ability to apply knowledge and use technology. ERG 
graduates had more impact in activities, such as technology transfer 
and teamwork, that were emphasized in the ERG program.

    NSF supported students have also brought insights to industry 
through their inventions and ideas. Some notable examples in areas 
relevant to NGI and Information Technology are:

    <bullet>  Marc Andreesen, while an undergraduate student at the 
University of Illinois--Urbana-Champaign working at the NSF funded 
National Center for Supercomputer Applications (NCSA), wrote the first 
WWW browser, Mosaic. Mosaic demonstrated the power of the browser 
concept for the WWW and became the ``killer application'' that 
popularized the Internet. Mosaic software was the basis for both 
Netscape and Microsoft browsers. Andreesen was one of the founders of 
Netscape Corp.
    <bullet>  Garth Gibson, while a graduate student at the University 
of California at Berkeley, developed error correction and detection for 
computer memory systems based on Redundant Arrays of Inexpensive Disks 
(RAID systems). The software and specifications form the basis of RAID 
1 through RAID 6 standards for these systems and are the basis for 
modern storage systems developed by dozens of companies, and now a 
multi-billion dollar industry. RAID systems provide high performance 
and high reliability systems at lower cost than was possible before its 
development. Gibson is now on the faculty of Carnegie Mellon 
University.
    <bullet>  Srinivas Devadas, while a student at the University of 
California at Berkeley found deep connections between sequential logic 
optimization and testing and fault tolerant systems. The algorithms 
developed in his doctoral research are embedded in CAD tools supplied 
by numerous companies that are used to design integrated circuits. He 
is now on the faculty of the Massachusetts Institute of Technology.
    <bullet>  Brian Pinkerton, a University of Washington graduate 
student, used NSF supported equipment to develop the first full text 
WWW search engine, Webcrawler. This work is now incorporated into the 
Excite search engine and has influenced several other search engines.

    These studies and individual cases demonstrate that NSF support of 
graduate students is critical to providing the highly trained workforce 
with advanced science and engineering skills and the abilities to use 
them in organizations at the same time that it supports striking 
innovations, such as web-browsers, that inspire entire new industries.
                                 ______
                                 
   Response to Written Questions by Hon. Bill Frist to Dr. Neal Lane
    Question 1. Dr. Lane, we have talked about how IT is a driving 
economic force in the country, how important speed is to the Internet, 
and about the need for continuous federal investment in R&D. Would you 
describe for the Committee what the Administration is doing to improve 
the technology transfer aspects of the IT research?

    Answer: The success of the U.S. IT industry and the benefits that 
we derive from IT innovations today are a direct result of past Federal 
IT R&D investments and the successful transfer of new technologies 
resulting from these investments.
    Much of the research funded by Federal agencies is implemented by 
researchers at universities and in the commercial sector. Funding 
provided to universities helps to educate students and support 
university researchers. Students graduate and move into industry, 
directly transferring their knowledge to private industry. In numerous 
cases, university researchers transfer their experience to start-up 
companies to rapidly make new capabilities available to the commercial 
sector. There are many success stories for this model of technology 
transfer. For example, Netscape began with a software package (Mosaic) 
originally written at the University of Illinois by an NSF-funded 
student. More recently, the Google search engine company was started by 
two Stanford students who took the results of NSF-funded research on 
digital libraries and built a commercial service using these ideas. 
Federally-funded commercial sector researchers can immediately apply 
the developed technology, software, and standards to commercial 
applications.
    Federal IT programs also support testbeds for the demonstration and 
development of technology, software, and standards. Commercial 
participation in these testbeds provides immediate technology transfer. 
The Internet was developed by DARPA and NSF as a prototype that both 
involved industry as well as demonstrated the market potential of 
widely available data networking. Federal outreach programs such as 
publication of research results, presentations at conferences, and 
participation in joint Federal/university industry workshops provide 
timely awareness of new IT developments. More recently, the development 
of online ``collaboratories'' is helping people cooperate at a 
distance, making new results of Federal research available to a wide 
variety of people in many locations. Many agencies involve academic, 
industry and government scientists in planning activities for research; 
these expose industry to the capabilities of other sectors as well as 
calling attention to long-term industry needs.
    In addition to these highly successful methods for technology 
transfer, new venues for technology transfer are being explored. These 
include preliminary experiments in open source distribution of software 
resulting from government-sponsored research. Industrial research 
collaboration is actively encouraged and funded by research agencies 
such as DARPA, NASA, and NSF and is a core feature of the NIST mission. 
This ensures a reciprocal leverage of research expertise in support of 
agency missions, while helping to develop technical standards which can 
be implemented by industry in near-term applications. Collaboration 
with other key contributing R&D performers--e.g. Federal laboratories 
and not-for-profit research institutions--is also important to ensuring 
technology transfer. We continue to carefully broaden merit-based 
participation in Federally-funded research and stimulate university-
industry partnerships, while emphasizing long-term research agendas.

    Question 2. A considerable portion of the federal investment in the 
IT domain is long-term research.
    (a) Do you believe that private industry's rapid technological 
advances will catch or exceed the federal research?

    Answer. Industry and the Federal government have complementary 
roles in IT R&D. Federally-funded research supports pre-competitive, 
long-term research that generates new knowledge and capabilities, the 
bank of ideas from which the private sector draws. Private companies 
are usually, and increasingly in the last decade, driven to short-term 
research for commercial advantage. They do not, as Federally-funded 
research does, explore new areas driven only by vision and/or agency 
mission needs rather than by understood commercial advantage.
    While private research in a particular commercial IT area may be 
ahead of Federally-funded research, it is most often the Federally-
funded long term research that produces the ground-breaking IT 
achievements when one considers the entire scope of IT research. 
Continued complementary investments by industry and government will 
help ensure our Nation's leadership in the information technology 
breakthroughs that are shaping our future.
    More basic, yet compelling reasons for sustained Federal funding 
for long-term information technology are that these investments 
directly support the education and preparation of our young people for 
careers in IT research, as well as the training of workers to upgrade 
their skills to keep pace with a changing marketplace. Trained people 
are not just a by-product, but rather a major product of publicly 
supported research. This is why it is imperative that we maintain the 
health of our university teaching and research mission. We must retain 
research and teaching faculty in order to sustain and increase 
production of Master's and Ph.D. students in the IT disciplines. These 
skill levels are needed if the U.S. is to keep its innovative edge in 
international IT markets, and access to these skills must be broadened 
within our society.

    (b) Also, how do you incorporate industry's advances into the 
federal research efforts?

    Answer. Industrial technology is used to support many of the 
Federal IT programs. For example, the Next Generation testbeds are 
built on the cutting-edge services of commercial telecommunications 
providers (MCI, Sprint, AT&T, and QWEST). Private industry supplies 
essentially all production computing and networking equipment for these 
testbeds, which Federal agencies use to develop new technologies.
    Many Federal agencies have advisory committees that include 
industrial members to ensure that they take advantage of industrial 
progress, as well as understand the needs of the industrial sector. The 
President's IT Advisory Committee includes industrial members, who 
provide review of and recommendations to the overall IT R&D research 
programs.
    Federal agencies also include industrial researchers in their 
proposal review process, so that the agencies' research reviews reflect 
the state of the art in industry. In addition, there is direct 
collaboration of Federally-funded university researchers through 
various agency programs, such as the NSF awards supplements to CAREER 
awards, to match industry and state funding. In areas where industry 
researchers have the lead, the Federal agencies have funded those 
researchers to foster breakthroughs in key technology areas critical to 
Federal agency missions.

    Question 3. Would you please explain the new activities established 
under last year's Information Technology for the Twenty-First Century 
initiative?

    Answer. The Information Technology for the Twenty-First Century 
(IT2) initiative provides a critically needed augmentation to the base 
High Performance Computing and Communications (HPCC) programs to fund 
extensions of some ongoing HPCC research agendas and expansions into 
new research areas, as recommended by the President's Information 
Technology Advisory Committee. The U.S. research community responded to 
last year's call for research ideas with a flood of creative proposals, 
a demand which far exceeded the supply of new funding in agencies such 
as NSF and DOD. As a result, with FY 2000 funding, NSF will start 25 
small research centers and five larger centers.
    As in previous years, the proposed IT research portfolio is based 
on coordinated, interagency investments which leverage expertise across 
agencies to give the best returns on those investments, both financial 
and technical.

    Research activities to be funded include:

    <bullet>  Expanding basic research on information technologies with 
a strong emphasis on software improvements. It is essential that we 
develop software that is dependable, resistant to intrusion, and 
inexpensive to build. Entirely new approaches are needed to move from 
today's computers to new machines that may link thousands or millions 
of individual processors.
    <bullet>  Approaches making it easier for people to communicate 
their requirements to computers and to understand the information the 
new systems make available. This will require entirely new tools for 
searching texts, pictures, and large sets of data. Special systems are 
needed for people with disabilities.
    <bullet>  Entirely new approaches to the design of computers needed 
to ensure that computational power continues to increase even when we 
begin to approach the limits of how small we can make electronic 
components. This will include exploring tools such as quantum computing 
or using DNA or other chemicals for processing data.
    <bullet>  Understanding the social, political, economic, and 
ethical issues raised by the transformations occurring in our economy 
and society as a result of IT. This includes attention to the 
increasing gaps in access to information tools and infrastructure that 
separate Americans along lines of race, gender, income, geography and 
physical abilities. Research is essential to understand and respond to 
these and other challenges created by an information rich economy.
    <bullet>  NSF has released a solicitation for a $36 million 
terascale computing system to ensure that the civilian research 
community can continue IT innovation through access to vastly more 
powerful machines than those available today. An FY2001 request for $45 
million will fund a second terascale computing system and initiate 
upgrades to maintain state of the art scientific computing facilities 
for civilian research.

    Question 4. What percentage of the President's request for the IT 
initiative is designated for applied research? If Congress decided not 
to appropriate funds for IT applied R&D for the next ten years, would 
the private sector begin to fund this?

    Answer. The traditional terms of ``basic'' or ``applied'' research 
are limited in their ability to describe the nature of scientific and 
technological research. For this reason it is difficult to determine a 
consistent categorization of basic and applied research across 
agencies. The President's Information Technology Advisory Committee 
urged increased funding for fundamental research, but also recognized 
the importance of federal support for applications development, 
testbeds, standardization efforts, and procurements of advanced 
computer systems. These activities are a vital part of the R&D 
portfolio. They enable progress in fundamental research by providing a 
means for applying new knowledge and a feedback process resulting in 
more effective research efforts and rapid adoption of new technologies. 
They also enable efforts requiring the talents of diverse communities 
of scientists and engineers.
    The industrial members of the President's Information Technology 
Advisory Committee were unanimous in their opinion that industry cannot 
and will not invest in solving problems of importance to society as a 
whole unless such investments make sense from a business perspective. 
Given the intense pace of the IT marketplace, firms must devote the 
bulk of their R&D resources to shorter-term applied research and 
product development with clear commercial application. Nearly all human 
and capital resources must be focused on bringing the next product to 
market in order for a firm to be successful.
    By funding a balanced portfolio of fundamental research, 
applications development, testbeds, standardization efforts, and 
procurements of advanced computer systems, the Federal government 
promotes the long-term health of information technology and demonstrate 
new technologies. The collaboration of universities, industry, and 
government laboratories allows Federal research to marry long-term 
objectives to realworld problems. Funding these activities through a 
variety of Federal agencies helps to leverage technical expertise 
throughout government and ensure broad-based coverage of many 
technological approaches to address a wide range of technical problems.

                                <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
